<html>
<title> - AVIATION SECURITY: REVIEWING THE RECOMMENDATIONS OF THE 9/11 COMMISSION</title>
<body><pre>[Senate Hearing 110-117]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-117
 
AVIATION SECURITY: REVIEWING THE RECOMMENDATIONS OF THE 9/11 COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 17, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                    U.S. GOVERNMENT PRINTING OFFICE
35-812                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
              Margaret Spring, Democratic General Counsel
             Lisa J. Sutherland, Republican Staff Director
          Christine D. Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 17, 2007.................................     1
Statement of Senator Carper......................................    33
Statement of Senator Inouye......................................     1
    Prepared statement...........................................     2
Statement of Senator Klobuchar...................................    15
Statement of Senator Lautenberg..................................    19
    Prepared statement...........................................    21
Statement of Senator Lott........................................    26
Statement of Senator Pryor.......................................    17
Statement of Senator Rockefeller.................................     1
    Prepared statement...........................................     2
Statement of Senator Stevens.....................................     1
    Prepared statement...........................................    14
Statement of Senator Thune.......................................    23

                               Witnesses

Hawley, Hon. Edmund S. ``Kip'', Assistant Secretary, 
  Transportation Security Administration, Department of Homeland 
  Security.......................................................     4
    Prepared statement...........................................     5

                                Appendix

Coyne, James K., President, National Air Transportation 
  Association (NATA), letter dated January 17, 2007, to Hon. 
  Daniel K. Inouye and Hon. Ted Stevens..........................    39
Response to written questions submitted to Hon. Edmund S. ``Kip'' 
  Hawley by:
    Hon. Daniel K. Inouye........................................    40
    Hon. Frank R. Lautenberg.....................................    52


                   AVIATION SECURITY: REVIEWING THE 
                      RECOMMENDATIONS OF THE 9/11 
                               COMMISSION

                              ----------                              


                      WEDNESDAY, JANUARY 17, 2007

                                       U.S. Senate,
 Senate Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:10 a.m. in 
room SR-253, Russell Senate Office Building. Hon. Daniel K. 
Inouye, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. I apologize for my delay here, but this is 
our first meeting of the Commerce Committee and I think it is 
significant that we begin with the tragic moment of this 
decade, 9/11. And I'd like to welcome all of you here.
    And I'd like to announce, now, that this committee has no 
Ranking Member, it has a Vice Chairman, with all the 
prerogatives of the Chairman.
    Mr. Chairman, it's your show. Want to say something?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much. I guess we should go 
through the traditional handing of the gavel, but it makes no 
difference, as far as I'm concerned, who's Chairman.
    [Laughter.]
    Senator Stevens. Thank you very much.
    The Chairman. Thank you, thank you.
    [Applause.]

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Mr. Chairman, if you wish me to 
proceed, what I'd like to start off by doing is recognizing 
that we are graced by the presence of three new people on our 
full Committee. And one is Senator Carper, who is not here, but 
who was born in West Virginia; the second is Senator Claire 
McCaskill, who is going to be an absolutely superb member of 
this committee, and I hope she enjoys it as much as we'll enjoy 
working with her; and the other is Senator Amy Klobuchar, from 
Minnesota, and she's going to be a terrific member, too. So, I 
just wanted to say that.
    I would also suggest, Mr. Full-Committee Chairman, that we 
not have statements--I won't make a statement, I'll just put it 
in the record--and that we go right to Mr. Hawley--Secretary 
Hawley, that we go to you and have you give your statement, and 
then we'll follow with questions, if that's all right.
    [The prepared statements of Senators Rockefeller and Inouye 
follow:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia

    Mr. Chairman, thank you for calling this very important hearing, 
and for shining a light on the crucial legislation a number of us 
cosponsored and introduced earlier this month, S. 184, the Surface 
Transportation and Rail Security Act of 2007, or the STARS Act.
    We know that we are a nation with enemies, and we know that because 
of our freedoms and our economy, we are a nation of targets. In the 
years since terrorists used one mode of transportation to wake us up to 
their sick motivations and evil designs, we have made strides to 
protect the people and assets associated with that mode, aviation. 
Despite the good, bipartisan work by this committee in the years since 
September 11th to address the vulnerabilities of our passenger and 
freight rails, our ports and waterway facilities, and other elements of 
our transportation infrastructure, I am afraid that some in Congress 
and in the Administration have not been as diligent in protecting these 
other modes.
    If we are to take our responsibilities as Members of Congress 
seriously, we must make certain that the trucks, trains, pipelines, and 
barges carrying hazardous materials are made secure. We must demand 
action to protect our passenger rail and transit systems so that the 
tragedies we have witnessed in Madrid, London, and Mumbai are not 
replayed here. We must do what we can to protect our transportation 
systems from evil motives and opportunities that we would never have 
thought to imagine just a few years ago.
    It is important for these witnesses to be heard before this 
committee, and it is even more important for the Committee to take 
quick action on the STARS Act. I look forward to voting it out of 
Committee, and anticipate its timely consideration by the full Senate.
                                 ______
                                 
 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    As we embark on the first hearing of the Committee on Commerce, 
Science, and Transportation in the 110th Congress, I wish to welcome 
the new members to the Commerce Committee:

        Senator Tom Carper of Delaware;
        Senator Claire McCaskill of Missouri;
        Senator Amy Klobuchar of Minnesota; and
        Senator John Thune of South Dakota.

    I would also like to recognize my Vice Chairman, Senator Ted 
Stevens. I look forward to our continued partnership to address issues 
of importance to our Nation.
    The members of this committee have much work to accomplish over the 
coming weeks and months. I am confident this can be done in a 
bipartisan fashion.
    Among other priorities, we need to ensure the security of all 
transportation modes. This Committee was instrumental in developing 
legislation to secure aviation and port infrastructure, but we must 
complete our work to secure the other modes of surface transportation 
including rail. In addition to tackling new transportation security 
threats through legislative initiatives, we have a duty to provide the 
necessary oversight on the implementation of security measures we 
mandated as long ago as 5 years and as recent as this past October.
    In addition, this committee must effectively assert its 
jurisdiction to protect and improve both our energy and environmental 
security through technological innovation that will increase fuel 
efficiency and encourage the development of alternative, clean-burning 
fuels, and reduce the production of greenhouse gases.
    Further, ``science'' is our middle name and we must ensure that the 
scientists who study the issues within this committee's jurisdiction 
receive the resources their work deserves and the opportunity to 
communicate their results to the public so that Congress can make its 
decisions with the best information possible.
    As the communications policy and technology committee, we must work 
to encourage innovation, competition, and competitiveness, and ensure 
that all Americans share in the benefits of technological advancements.
    I look forward to working collaboratively with the members of this 
committee as we tackle these, and other important issues.
    On a few matters of ``housekeeping,'' for full Committee hearings 
which will be chaired by me, I would like to continue the procedure for 
opening statements and member questions that Senator Stevens and I 
adopted last year. Under this procedure, Senators will be allotted 7 
minutes for the first round of questions, up to 2 minutes of which may 
be used for a brief opening statement.
    If time permits, at the discretion of the chair, members may ask a 
second round of questions. This will ensure that all our witnesses have 
as much time to answer questions as we can provide them.
    Subcommittee Chairs may establish their own opening statement and 
question procedures for subcommittee hearings as the circumstances 
warrant.
    On another matter of ``housekeeping,'' as the Chairman of the 
Committee with jurisdiction over technology and communications it may 
seem inappropriate, but I would be most appreciative if during hearings 
members would minimize the use of BlackBerry devices and cell phones, 
as a courtesy to the witnesses.
    With respect to this morning's hearing, Senator Rockefeller, who 
will be chairing the Aviation Operations, Safety, and Security 
Subcommittee, has great expertise in this area with his background on 
this committee, the Intelligence Committee, and the Finance Committee. 
I appreciate his chairing this hearing today.
    I will submit the remainder of my statement for the record so that 
we can quickly move to our witness and allow ample opportunity for 
members to ask questions.
    I recognize my Vice Chairman, Senator Stevens, for any remarks he 
would like to make before I turn the gavel over to Senator Rockefeller.
    Our nation has taken many important steps that have strengthened 
the security of our transportation system over the past 5 years. This 
is particularly true of the domestic aviation industry. Both the 
government and private sectors have made a tremendous investment to 
develop a layered security regime in which the vast majority of the 
traveling public has confidence.
    In fact, more Americans flew last year than any other year in the 
history of commercial aviation, and as potential threats arise, the 
security system has proven to be flexible enough to keep passengers 
flowing while remaining responsive to security challenges.
    Despite our efforts to ensure the security of the aviation system 
in the United States, more needs to be done to address ongoing threats. 
The bipartisan 9/11 Commission provided a valuable public service by 
making recommendations on how to ensure against a repeat of the events 
of September 11, 2001. They identified several key shortcomings in our 
aviation security system, including the process for cargo and baggage 
screening, checkpoint screening for explosives and passenger 
prescreening. Each of these weaknesses, if unaddressed, offers an 
opportunity for our enemies to launch a potentially devastating attack.
    The development of an advanced passenger prescreening system, a 
vital component of our security system, has been delayed for several 
years. That is too long.
    The Transportation Security Administration (TSA) needs to move 
forward with this system, to strengthen aviation security while 
protecting the civil rights of all Americans. The installation of 
integrated or ``in-line'' Explosive Detection Systems (EDS) will not be 
completed for more than a decade if deployment continues at its current 
pace. Again, this is too long given the economic and operational 
benefits this system provides. We must speed up this process.
    In addition, the TSA must address the security of all cargo going 
on passenger aircraft. The TSA must work with Congress to make certain 
extensive screening becomes a reality in the near term.
    This summer's foiled plot to target U.S. and British air carriers 
with liquid explosives has shown both the successes of our overall 
security efforts, as well as our remaining weaknesses. Intelligence was 
vital in stopping that attack at the planning stages, but we can only 
guess how the security regime would have responded if the plot had been 
put in motion. It was a stark reminder of the continual efforts of our 
enemies, and the continual resolve we must have to secure our citizens 
and our economy against their efforts.
    It is critical that this committee work with the Administration, 
the public, and the aviation industry to improve the existing system of 
security and fix any remaining problems. We must both ensure the 
integrity of our security system, and keep the country's vital economic 
engine functioning efficiently.

          STATEMENT OF HON. EDMUND S. ``KIP'' HAWLEY, 
         ASSISTANT SECRETARY, TRANSPORTATION SECURITY 
        ADMINISTRATION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Hawley. Thank you Mr. Chairman, Mr. Vice Chairman and 
members of the Committee.
    When I last appeared before this committee, we had a very 
direct conversation about Secure Flight, TSA's watch-list 
matching program. I announced at that time that I directed a 
re-baselining of the program to assure that it meets our 
stringent privacy requirements. That work is now complete, and 
we are moving forward to start implementation of Secure Flight 
next year.
    It is important to note that watch-list matching of known 
terrorists with passenger lists is not on hold while waiting 
for Secure Flight. That process works well today and will 
continue until we are sure that Secure Flight is fully ready.
    To assure the accuracy of the No Fly List itself, we will 
shortly conclude a case-by-case review of every name on the No 
Fly List. Working with our partners at the Terrorist Screening 
Center and in the intelligence community and law enforcement, 
this effort will effectively cut the No Fly List in half.
    Of course, TSA's most visible presence is at the airports. 
On the morning of August 10th, about a month short of the fifth 
anniversary of 9/11, we had an unscheduled, real-world test of 
TSA, in particular, and aviation security, overall.
    TSA, in just a few hours--literally overnight--rolled out a 
new checkpoint security process for every passenger in America. 
Also, TSA put these changes into effect worldwide for every 
flight bound for the United States, and deployed Federal Air 
Marshal teams to saturate affected flights flown by U.S. 
carriers.
    For TSA, August 10th represents both an affirmation of how 
far we've come in 5 years and gives us confidence in the path 
ahead. I'm proud of the way TSA men and women, including 
Federal Air Marshals, stepped up to this challenge, and of 
their commitment to our mission going forward.
    August 10th also illustrates how some of the security 
layers that I have mentioned in previous testimony work in a 
live-fire situation.
    The first layer I identified was working with our partners 
in the intelligence community, law enforcement, and the 
military, others at DHS, and elsewhere in the U.S. Government, 
to identify and act on the threat at its origin. That happened 
in August, and the coordinated actions across the Government 
gave us, at TSA, key, timely information that enabled us to 
stay ahead of the threat.
    TSA does not act alone. Airports and airlines work 
alongside TSA every day. I cannot express, enough, my 
appreciation for the job they did this summer. We were all on 
the same page and acted together in a coordinated and sustained 
effort.
    The same thing can be said for our international partners. 
We worked together to put in place what has become an ICAO-
recommended practice worldwide, and is enforced today 
throughout the European Union, Canada, and Australia. 
Connecting with partners in the U.S. Government in the aviation 
industry, and with government entities around the world, is a 
vital part of our security system and does not happen by 
accident. At TSA, building and practicing these connections is 
a core function of the agency.
    I've testified before this committee on a number of 
occasions about the importance of taking full advantage of our 
existing workforce, and of recognizing that the human mind 
itself is the most advanced technology on Earth.
    As you know, we've put a major focus on sophisticated and 
continued training of our Transportation Security Officers 
(TSOs) in detecting improvised explosion device (IED) 
components. Beyond IED training, we have developed advanced 
capabilities in behavior observation, bomb appraisal, and 
document verification. We have also made a major investment in 
our workforce to retain and motivate the best security 
officers. Our work over the last year has resulted in 
significant reductions in old problem areas, like attrition and 
injuries.
    For the first time, TSOs have significant long-term career 
opportunities, as well as pay increases for excellent 
performance. The impact of this renewed focus on mission 
performance and our TSOs is that we have an engaged workforce 
that is well-trained and motivated. I think you can feel it at 
checkpoints around the country.
    The challenge in August was unplanned, but it was not 
unexpected. We will continue to be challenged, and have to be 
prepared for the unknown new threat, as well as address all the 
known threats. This puts a priority on layers of security that 
are flexible, connected, and cannot be engineered around.
    So, even as we continue to deploy technology, we must also 
continue to invest in our workforce and take advantage of the 
unique asset that it represents. Every day, all across the 
country, there are thousands of TSOs, inspectors, and Federal 
Air Marshals who, on a moment's notice, can and do deploy 
anywhere in an airport or the world.
    Our mission is security, and we never forget that. To meet 
an adaptive enemy whom we cannot always predict, there is no 
substitute for alert and prepared people.
    Thank you for the opportunity to appear today, and I'd be 
happy to answer your questions.
    [The prepared statement of Mr. Hawley follows:]

    Prepared Statement of Hon. Edmund S. ``Kip'' Hawley, Assistant 
   Secretary, Transportation Security Administration, Department of 
                           Homeland Security

    Good morning Chairman Inouye, Vice Chairman Stevens, and 
distinguished members of the Committee. Thank you for this opportunity 
to speak with you about the progress the Department of Homeland 
Security (DHS) has made in fulfilling the recommendations of the 9/11 
Commission related to aviation security.
    First, I would like to thank the Committee for the tremendous 
support given to DHS and the Transportation Security Administration 
(TSA) over the past year, especially as we have sharpened our focus on 
explosives at the passenger checkpoint. We look forward to continuing 
our partnership on these and other issues in the coming year.
    2006 was a demanding year for TSA, and its partners in aviation 
security generally, but it ultimately has demonstrated how far we have 
come in securing our Nation's transportation systems since the 9/11 
Commission issued its report and recommendations.
    While last year is most notable for the activities related to the 
liquid explosives plot, I would like to highlight for the Committee 
several initiatives that helped us prepare to meet that and other 
security challenges as well as the challenge presented by increased 
passenger loads. Last year we discussed our need to focus more on the 
threat of improvised explosive devices (IEDs) at the passenger 
checkpoint. We knew that, while technology is a key component of our 
security strategy, we had opportunities to increase security by better 
enabling our workforce, specifically our Transportation Security 
Officers (TSOs). I will discuss some examples later in my testimony, 
but the efforts were centered around training and retaining our best 
people, giving them financial and career progression incentives, and 
expanding opportunities for more advanced security skills like behavior 
observation.
    While those efforts were underway, TSA, anticipating increased 
summer passenger loads, changed the way it hires new employees from a 
centrally operated headquarters model to one where the local airport 
team managed its own hiring. This transition was complete in time to 
staff the Memorial Day to Labor Day peak summer travel period.
    In the weeks before Memorial Day, there was concern about TSA's new 
staffing model and the agency's readiness to handle the summer traffic. 
The liquids ban in August raised issues about large scale cancellation 
of flights due to security delays. Our ``3-1-1'' security procedures, 
which allow passengers to bring onto planes small quantities of liquids 
that do not represent a significant security risk, were controversial, 
and many felt that the Thanksgiving holidays would be affected by 
security delays. But TSA, airlines, airports, and passengers were ready 
for the summer, flights were not canceled as a result of the liquids 
ban, and all handled the holiday travel season without incident.
    Similarly, TSA's Federal Air Marshals Service (FAMS) put forth 
major efforts at improving its operating procedures to better retain 
Federal Air Marshals (FAMs) and improve TSA's ability to quickly 
support emergent circumstances that might occur anywhere in the world. 
Examples of these efforts include the comprehensive listening and 
employee involvement initiatives that resulted in more flexible dress 
code and travel requirements, as well as the FAMS support of the 
emergency evacuation of U.S. citizens from Lebanon.
    The value of a fully-staffed, fully-prepared, and actively engaged 
TSA front-line workforce, be they TSOs or FAMs, was made evident most 
dramatically in TSA's response to the discovery in the United Kingdom 
of a plot to use liquid explosives to take down passenger aircraft 
bound for the United States. TSA acted decisively and swiftly to 
protect the traveling public. Literally overnight, our dedicated TSOs 
implemented major new screening protocols to focus on and protect 
against the imminent threat. FAMs moved, in the hundreds, to conduct 
missions of unprecedented tempo and complexity to combat the threat and 
instill confidence in the security of commercial aviation. The support 
of our partners in the airports and airlines, as well as the 
cooperation of the traveling public, was invaluable in achieving this 
success. All of us can be proud of the fact that while this was 
enormous change, implemented on an emergency basis, the U.S. aviation 
system continued to function--that, even though there were security 
delays in the first few days of the new process, the system operated 
smoothly from August right through the recent holidays.
    In this regard, we would emphasize that TSA's ability to deal 
effectively with the liquids plot, as well as its ability to assist 
with the impact of Hurricane Katrina, depended upon TSA's flexible 
personnel management authorities established in the Aviation and 
Transportation Security Act (ATSA). These authorities permit TSA to 
flexibly manage and deploy its workforce, including its TSO workforce, 
in carrying out important security work directly affecting national 
security. During Hurricane Katrina and after the United Kingdom air 
bombing plot was foiled, TSA changed the nature of employees' work--and 
even the location of their work--to flexibly respond to these 
emergencies. Similarly, FAMs were redeployed on hours' notice to 
support the evacuation of U.S. citizens from Lebanon. This flexibility 
is a key component of how DHS, through TSA, protects Americans while 
they travel. For these reasons we would strongly oppose any legislative 
proposal that would diminish the authority that this committee gave to 
us in ATSA.
    It is also important to note that our partners in other countries 
around the globe stepped up in a major way to implement the new 
protocols that we instituted with necessarily short notice. The 
communications efforts that followed the emergency actions resulted in 
unprecedented advanced harmonization of security measures that 
subsequently resulted in nearly identical measures for the United 
States, Canada, the entire European Union, and Australia, as well as 
adoption by the International Civil Aviation Organization (ICAO) of a 
world-wide recommended practice reflecting the same procedures.
    We have learned a great deal since the 9/11 Commission released its 
findings about the nature of the terrorist threat today and about the 
best ways to use the tools at our disposal to deal with that threat. 
Our experience teaches us that the 9/11 Commission recommendations can 
be most effective when applied in the context of the constantly 
changing world in which we operate. They inform our path forward as we 
integrate them with the additional insights we have gained since their 
publication.
    Since its inception, TSA has embraced the essential concept that no 
single security strategy is foolproof, but by employing layers of 
security to our mission, risk to our Nation's transportation system can 
be mitigated. Our layered approach to security utilizes and relies upon 
interconnecting networks among our partners in the aviation industry--
air carriers and airport operators; State and local governments and 
their law enforcement agencies; and other Federal entities including 
among others, other DHS components, the FAA, and the Federal 
intelligence community; as well as other nations allied with us in the 
fight against terrorism. Our layered approach utilizes technology and, 
more importantly, depends upon the skills and dedication of our TSOs.
    We have learned that the most visible part of our aviation security 
mission, the screening of passengers and property at the airport, is 
but a part of our arsenal against terrorism. We cannot focus on a 
``catch them in the act'' strategy that waits until a person tries to 
board an aircraft with a weapon. No matter how good our screening is, 
and how sophisticated our technology is, our success is greatly 
improved with our ability to anticipate the terrorist act and thwart it 
well before it gets off the ground. This was demonstrated not only by 
the timely investigation, revelation, and frustration of the British 
liquid explosives plot, but also by the early disruption of a plot to 
attack tunnels under New York's Hudson River.
Our People
    Most importantly, we know that our mission cannot be achieved with 
a checklist mentality in an assembly-line environment. Our people are 
the most critical asset in our mission of securing the Nation's 
transportation systems. No existing technology can provide a fully-
automated approach, and even with extensive use of technology, we will 
always need the critical thinking skills of people to adapt to emerging 
threats.
    The introduction of several new programs focuses on developing 
specialized skills in our workforce. TSA has implemented a behavior 
observation and analysis program, called Screening of Passengers by 
Observation Techniques (SPOT), designed to provide TSA Behavior 
Detection Officers (BDOs) with a non-intrusive means of identifying 
potentially high-risk individuals. The program was developed and 
implemented to observe normal passenger characteristics and anxieties 
and identify anomalies to detect individuals who may be a threat to 
aviation and/or transportation security. SPOT is also part of a larger 
effort by the agency to add more layers of security to protect against 
those individuals seeking to defeat our security systems.
    TSA has also implemented the Bomb Appraisal Officer (BAO) program 
to prevent the introduction of explosives and IEDs from entering the 
aviation system. The BAOs are trained bomb technicians who provide 
advanced training for the workforce and resolve alarms that are beyond 
the TSO workforce capability.
    TSA continues to develop and refine our plans relating to document-
checking, whereby specially trained TSOs examine boarding documents to 
detect and deter individuals attempting to board aircraft fraudulently. 
This interaction with passengers also gives these TSOs an additional 
opportunity to observe behavioral characteristics of passengers and 
identify anomalies that would warrant additional screening, augmenting 
other security programs such as SPOT.
    TSA also continues to add elements of randomness and 
unpredictability to the airport security environment to prevent 
terrorists from committing terrorist or harmful acts.
    Our mission success therefore depends on recruiting and keeping 
trusted, bright, well-motivated, well-trained people who have the right 
tools, work in a positive, team-driven environment, and are involved 
and challenged by their work. Our work force must be rewarded by fair 
compensation and benefits and have prospects for continued advancement 
based on their ability and effort.
    To this end, in 2006 we rolled out a comprehensive performance 
management system for making TSA a true performance-based organization. 
Under this system, TSA is now compensating its TSOs based upon their 
technical proficiency, training and development, customer service 
skills, teamwork, professionalism, and leadership. By recognizing and 
rewarding the right skills and new skills, as well as higher 
proficiency levels, we are reinforcing critical performance areas and 
developing new ones to support the ever-changing needs in security.
    Another critical program introduced in 2006 is the TSO Career 
Progression initiative. TSA is committed to creating a career track and 
advancement opportunities that will encourage not only quality 
performance, but also longevity among our TSOs. This program created 
new pay bands for TSOs and the opportunity to serve in advanced 
positions as Behavior Detection Officers, who execute TSA's Screening 
Passengers by Observation Technique (SPOT) Program, BAOs, and TSA-
Approved instructors, who provide a full range of required TSO 
training.

Passenger Pre-Screening
    The focus on people applies to those who work at airports and 
airlines and fly as passengers as much as to those, like TSOs and FAMs, 
who provide security for the system. This topic rightly received 
considerable attention from the 9/11 Commission.
    Regarding passenger pre-screening, I testified before this 
committee in February 2006 on the status of Secure Flight, TSA's watch-
list matching program, and am pleased to update the Committee in the 
context of the 9/11 Commission recommendations.
    While we are aware of concerns regarding the effectiveness of the 
current system of screening domestic airline passengers against the No 
Fly List, today any person on the No Fly List will not fly. The No Fly 
List is regularly kept up to date and changes are made as required. 
Secure Flight, when operational, will bring the process of comparing 
passenger names against the No Fly List, now performed by aircraft 
operators, into the government. That is why I have said that it is more 
important that Secure Flight is built right--with all the needed 
operational attributes and privacy that will withstand any challenges. 
So while I am mindful of the urgency to bring Secure Flight into 
operation quickly, I am also mindful of my obligation to the public not 
to get into a situation where we either have to stop flights or allow 
them to fly without a way to prevent No Flys from boarding.
    TSA is firmly committed to protecting the privacy and civil 
liberties of travelers. After completing a vulnerability assessment of 
the Secure Flight program and after considering feedback from the 
Congress and the Government Accountability Office (GAO), as well as DHS 
evaluations of the program, I announced to this committee that TSA was 
re-baselining the program. At that time, we undertook this effort to 
assure privacy and information security in Secure Flight by making sure 
the foundation of the program was strong and that it will be successful 
upon implementation. That work has now been completed.
    I am pleased to update you that we are currently working with the 
DHS Screening Coordination Office (SCO) toward achieving DHS 
certification and demonstrating satisfaction of the ten areas of 
Congressional direction to GAO. We are working closely with GAO to 
facilitate their review of the program's development. In addition, 
through regularly scheduled meetings with U.S. Customs and Border 
Protection (CBP), we are coordinating airline industry needs with CBP 
and the airlines with the intent of providing a single DHS system 
interface to the industry.
    Key to our efforts in improving passenger pre-screening has been 
the tremendous undertaking to systematically review names on the No Fly 
List. The purpose of the review is to remove, or downgrade to the 
Selectee List, individuals that do not meet the established criteria 
for the No Fly List. The review implements new guidance for the No Fly 
and Selectee Lists ratified in July 2006 by the Terrorist Screening 
Center's (TSC) Governance Board. Just as the threat environment is 
fluid, so must the No Fly List be maintained as a true list of 
individuals who currently pose a threat, rather than maintaining on the 
list those who were feared to have presented a threat in the past, but 
no longer do. TSA and the TSC, in collaboration with all the nominating 
agencies responsible for compiling the No Fly List, are in the process 
of a thorough, name-by-name review of that list. We expect that by the 
time the review is completed in mid-February, the No Fly List should be 
reduced by approximately 50 percent. A similar review will be 
undertaken with respect to the Selectee List.
    Integral to the successful execution of our passenger pre-screening 
efforts is our redress system, by which travelers who either previously 
have been misidentified or believe they are on the No Fly or Selectee 
List in error may apply to have that error corrected. We have 
significantly modified the process in response to customer feedback 
that the process was too cumbersome and expensive. Now an applicant 
need submit only a single document--a United States Passport--to verify 
his or her identity. Approximately 70 percent of applicants have this 
document and are therefore able to apply for relief without submitting 
other documentation. We have also eliminated the requirement that 
identity documents be notarized and we allow electronic submission of 
the application and supporting documentation. Finally, TSA introduced 
an automated Redress Management System (RMS). After assuring the 
privacy of users and the security of the system, RMS was launched on 
October 6, 2006, enabling travelers to submit and check the status of 
their applications electronically via the Internet.
    TSA has already seen a dramatic improvement in customer service. 
TSA received and processed more than 20,000 redress requests for 
calendar year 2006. At the same time, the average processing time has 
been reduced from 60 to less than 10 days. TSA is also working with 
other DHS components to bring to reality the DHS Traveler Redress 
Inquiry Program (DHS TRIP), Secretary Chertoff's and Secretary of State 
Rice's joint vision of one-stop redress for travelers. This program 
would provide travelers with a single, simple process for addressing 
Federal watch-list misidentification issues and other individual 
complaints that arise from the traveler's screening experience.

Explosives Detection Technology
    In partnership with DHS Science & Technology (S&T) Directorate, TSA 
benefits from a robust research and development program for explosives 
detection. TSA has invested over $1 billion to purchase, install and 
upgrade explosives detection systems at airports over a three-year 
period. In Fiscal Year 2006, TSA invested approximately $534 million in 
the purchase and deployment of explosives detection technology, which 
included Next Generation technology and Letters of Intent (LOI) 
reimbursement.
    DHS continues to move forward to research, pilot, and deploy 
additional checkpoint explosives detection technologies. These new 
technologies will be deployed as soon as their reliability is assured. 
In the coming weeks, TSA will also begin testing x-ray backscatter 
technology that will be able to detect non-metallic devices and 
objects, in addition to metallic weapons and other threat items.
    Consistent with all other elements of security, the integrity of 
explosives detection ultimately depends upon a well-trained, dedicated 
workforce. In the fall of 2005, TSA developed and rolled-out advanced 
IED training for every checkpoint TSO, including detection of liquid 
explosives. More than 38,000 TSOs have completed this training, which 
has subsequently been reinforced with intensive technical classroom 
training and online improvement training to reinforce explosives 
detection capabilities.
    TSA conducts its own explosives covert testing on our checkpoints, 
and we have made changes to our protocols to improve passenger 
screening. We are working with GAO to incorporate any lessons learned 
from their tests in our training and screening protocols, as well.

Checked Baggage Screening
    Today TSA meets the requirement to screen 100 percent of all 
checked bags for explosives. Since the initial deployment of explosives 
detection systems (EDS) and explosives trace detection units (ETDs) to 
screen checked baggage electronically for explosives after 9/11, TSA 
has aggressively pursued innovation and investment intended to 
dramatically improve the system. Today, 67 airports are either 
operational or deploying some form of advanced in-line baggage 
screening system.
    In February 2006, TSA delivered to Congress a Strategic Planning 
Framework for the Electronic Baggage Screening Program (EBSP). This 
framework details TSA's long-term planning philosophy for the 
development and implementation of optimal baggage screening solutions 
at the Nation's top 250 airports, where over 99 percent of checked 
baggage originates, and currently guides TSA's investment and 
deployment decisions. The plan also includes a funding prioritization 
schedule, a deployment strategy, an EDS life-cycle management plan, and 
a stakeholder collaboration plan.
    TSA, through an Aviation Security Advisory Committee (ASAC), has 
been working separately with aviation industry stakeholders to develop 
a cost-sharing formula and innovative financing solutions for the EBSP, 
and has been exploring the options proposed to expedite the deployment 
of in-line EDS. This Baggage Screening Investment Study (BSIS) has been 
completed and will be provided to Congress in the near future.

Air Cargo Security
    TSA has augmented air cargo security through a combination of 
layered security measures, including screening and vetting, that 
enhance security without unduly disrupting the flow of commerce. As 
part of this effort, TSA is implementing a comprehensive final 
regulation to strengthen air cargo security throughout the supply chain 
and has issued targeted rules that set additional security requirements 
for regulated parties. These rules include: the elimination of all 
exemptions from cargo subject to screening, increasing to 100 percent 
TSA's screening of counter-to-counter cargo and increasing to 100 
percent TSA's screening of all cargo received at Category II, III, and 
IV airports. TSA also targets certain high risk categories of cargo for 
100 percent screening, utilizes over 396 canine teams to screen cargo 
at 74 of the Nation's larger airports, and is requiring Security Threat 
Assessments for all supply chain workers with unescorted access to air 
cargo.
    TSA vigorously enforces these regulations and security directives 
through inspections and imposition of civil penalties for violations, 
through a committed staff of 300 air cargo security inspectors and 
additional aviation security inspectors. Thus far, this program has 
successfully managed risk, while allowing the airline industry to 
provide air cargo service on passenger flights. We plan to maintain 
this approach of vigorous enforcement, coupled with continued 
technological research and development. However, any mandate to 
physically inspect 100 percent of air cargo within 3 years is not 
feasible without impeding the legitimate flow of commerce and imposing 
an unreasonable cost on the government.

Conclusion
    2006 was a growth and performance year for TSA. We have come a long 
way since this committee wrote ATSA and since the 9/11 Commission 
issued its recommendations. We now have a strong, flexible, effective 
operating capability at TSA with the proven ability to network with 
others in government and industry around the world. While we still have 
holes that need to be filled and foundations that need to be 
strengthened, we have a sound strategy, effective against an adaptive 
enemy, and the operating capability to execute it. Part of this 
strategy will be a continuously adaptive response. While we understand 
that travelers are looking for continuity and certainty in their travel 
experience, we need to balance that need against the need to remain 
adaptive to the ever-changing threat.
    This Committee created the TSA and gave it a critical mission. The 
men and women of TSA have signed up to do that mission and are today 
fulfilling it. It is demanding work and our job satisfaction comes from 
participating in the most compelling mission of our time and we 
understand that while criticism comes with the job, TSA has the honor 
of doing meaningful work on behalf of our country.
    Further progress in 2007 will be made and our success will be 
greater if we can finish the build-out of TSA and achieve what ATSA 
envisioned. The Congress and Administration have provided the 
authorities and the resources we need for 2007 and we will soon have 
recommendations for 2008. I look forward, and I know I speak for every 
one of us at TSA, to working with the Committee and others in Congress 
on achieving the vision that was contemplated during the intense 
aftermath of 9/11, and we will do so with the same intensity we all 
felt 5 years ago.
    Mr. Chairman, thank you again for the opportunity to testify today. 
I am happy to respond to the Committee's questions.

    Senator Rockefeller. Thank you, Mr. Hawley.
    And I would now call upon the Chairman of the Full 
Committee.
    The Chairman. And I have just one technical question. In 
your statement, you said that it would be very difficult, if 
not impossible, to physically inspect 100 percent of air cargo 
within 3 years without imposing an unreasonable cost on the 
government. How would this affect just passengers? Why do you 
just have passengers checked?
    Mr. Hawley. What if we--I didn't----
    The Chairman. Hundred percent.
    Mr. Hawley. Of baggage--of freight on passenger aircraft?
    The Chairman. Would that be feasible?
    Mr. Hawley. Well, it would--if it were required by law, 
we'd figure out a way to do it in the time-frame that it--it's 
required. The concern that I have is that 100-percent 
requirement in a statute will focus the effort on getting the 
100 percent done, which makes it more of a logistics issue than 
a security issue. And it just says, ``Hey, we've got to get 100 
percent of these packages screened in the way that is 
required,'' and it would divert resources that we may prefer to 
be able to move around on an unpredictable basis. So, I think 
the concern is that, for a very small incremental benefit of 
security, it would take away resources that we could more 
productively apply elsewhere.
    The Chairman. What is the present percentage of inspection?
    Mr. Hawley. It's a classified number, and we can talk about 
it in that environment, but it was recently tripled. But more 
importantly than that, we've been adding security measures to 
air cargo over the last year. It's something that Secretary 
Chertoff has a very strong interest in, and he had us really 
focus on that.
    So we, in the last 6 months, have eliminated all exemptions 
to air freight. So, it used to be that there was a certain 
percentage of freight that was not exempt, and that was the 
classified number. But what we've done now is, we've eliminated 
all exemptions, so that right now, no freight is exempt from 
screening and we require a random continuous screening of 
everything, in addition to the former requirement that we had.
    The Chairman. The rest of the questions I have relate to 
the explosive detection system, and I'd like to submit them, 
Mr. Chairman. OK?
    Senator Rockefeller. Absolutely.
    The Chairman. Thank you.
    Senator Rockefeller. The former Chairman of the Full 
Committee, Senator Stevens.
    Senator Stevens. Well, thank you very much, Mr. Chairman.
    Mr. Hawley, I congratulate you on what you've done so far. 
I know that the 9/11 Commission has issued a report card 
dealing with the standards that they seek to have established. 
I do think that we've invested a substantial amount of money 
over the last 5 years and made considerable progress.
    I would ask a little clarification of your answer to the 
Chairman's question. Now, you're talking about baggage 
originating in the United States, going to another place in the 
United States, I assume. Is there a difference between that and 
baggage that's going out of the country?
    Mr. Hawley. No. Anything that's loaded onto a passenger 
craft is subject to this requirement.
    Senator Stevens. And why would it be more difficult to 
establish the same criteria for the cargo that's getting onto a 
passenger plane?
    Mr. Hawley. There are a lot of--the operational impact is 
significant, because a lot of that freight is palletized, put 
into very, very large packages that do not fit in the existing 
EDS machines, and we have a----
    Senator Stevens. We call those ``combo flights'' up our 
way, in Alaska. I thought they were basically barred in many of 
the aircraft today.
    Mr. Hawley. We have a special program for--that includes 
Alaska--that's different because of the different nature of 
Alaska, obviously. But we have a science and technology project 
that's now operating in San Francisco that is using the EDS 
machines and trying to establish what the operating protocol 
would be if we wanted to run everything through the EDS 
machines. So, it's something that we are looking at. It would 
take a tremendous amount of resources to get this done.
    Senator Stevens. Is there palletized freight on our major 
airlines in what we call the Southern 48?
    Mr. Hawley. Yes, sir.
    Senator Stevens. And where is it? Is it like it is in 
Alaska--in front of the passengers?
    Mr. Hawley. It's underneath, typically.
    Senator Stevens. Yes. Underneath.
    Mr. Hawley. And what they do under our new system is--that 
we're trying some innovative things, with canine teams, of some 
programs that are in Europe, where they essentially get inside 
the shrinkwrap of these palleted items, and then have the dogs 
come by and take, you know, do their reading of the fumes based 
in that pallet.
    So, we're looking at a lot of innovative things. And I 
should say, we don't disagree that screening air cargo on 
passenger planes is very important; it's really a question of, 
Operationally, what is the best security value for the 
investment of time?
    Senator Stevens. Have airlines in any way objected to 
application of screening to that type of cargo?
    Mr. Hawley. I don't get real pushback from airlines, on the 
concept that we need to do it, and I've heard a lot of 
suggestions about increasing the number of canine teams, 
because canines are effective and very flexible. And it clearly 
is a shared responsibility. We all have the same interest at 
heart. So the question always boils down to, OK, how are you 
operationally going to do it? Where's the money going to come 
from, and what are you doing today that you are not going to do 
once you divert the resources?
    So, we're all on the same page in terms of needing to do 
intense security on cargo and on passenger aircraft; the debate 
is, how exactly do you we get it done?
    Senator Stevens. As you know, a substantial portion of 
cargo that comes into the United States across the Pacific 
comes through our airport in Anchorage. I think it's the 
number-one cargo landing port now on a daily basis. That 
sometimes is then broken down and put onto other planes leaving 
Anchorage and to go throughout the U.S.
    There is no screening of that as it comes into the United 
States. Why shouldn't it be screened there?
    Mr. Hawley. Well, there is the--all freight cargo that 
comes in on, with no passengers, so that is not subject to 
screening. But anytime that freight gets onto a passenger 
aircraft in the United States, it's subject to our air cargo 
requirements.
    Senator Stevens. I understand what you're saying about the 
availability of trained dogs to perform this mission. Have you 
thought of trying to contract that out to the private sector? I 
think they have a way of responding quicker to demands like 
this.
    Mr. Hawley. Well, the requirement now is principally on the 
airlines, who then contract out with people to do a lot of the 
work that they do now. So what we would do is establish a 
performance standard, and then we would debate over who would 
do it. And whether the airlines contract for, whether the 
government pays for it--those type of things. It could work 
well either way.
    Senator Stevens. Why haven't you increased the standard for 
baggage? I mean, for cargo that's on passenger planes?
    Mr. Hawley. Well, we have very significantly increased it. 
We've had a number of different measures over the last 6 
months, including the formal rule that we put out which gets at 
securing the supply chain itself; and then, we've added 
additional measures, like: anytime somebody shows up at an 
airport and wants to put a package on a specific flight, it has 
to be screened the same way as checked luggage.
    So, we keep going after additional security measures to put 
on top of each other. And I think the goal of 100-percent 
screening is something that is necessarily out in the future. 
Our concern is that, while that debate is going on, we're doing 
things right now that will affect, and meaningfully improve, 
security in the immediate term.
    Senator Stevens. Well, shifting over to other things, 
although it has some impact on this also, this committee has 
oversight on the airline industry, per se, and we know that 
almost every one of those airlines has been in and out of 
bankruptcy during this 5-year period that your agency's been in 
existence. But it seems like every time we require an addition 
to the security system, it is pushed off on the airlines to pay 
for it. That can't continue, really, in terms of issues like 
this. Isn't there some way we can devise to screen these, this 
cargo that goes onto passenger aircraft, without increasing the 
cost to the airlines, per se?
    Mr. Hawley. Yes, and you could say, ``Well, the Government 
pays for it,'' but one of the things that we're doing now----
    Senator Stevens. The Government doesn't pay for it, the 
airline traveler is the only person in the United States that 
pays for security. The rest of it is paid out of taxes. And I 
think that every time we add a burden to the system, we further 
compress the ability of the American airlines to survive.
    What are they doing in Europe?
    Mr. Hawley. Well, it's principally, it's virtually all on 
the private sector, including the airlines. So----
    Senator Stevens. Do they have higher standards of 
examination of cargo like this?
    Mr. Hawley. They have, not identical, but pretty close--
there's a pretty close match in, particularly passenger 
screening, and we're working with them to align the air cargo. 
But really the burden is principally on airlines overseas.
    And one of the things I was going to mention is that we--
one of the things we've done for air cargo is we've got 360 
canine teams, and we've devoted a quarter of their time in the 
air cargo environment, so that--of our security resources--
we're devoting a greater proportion to get after the air cargo. 
And that's at no additional cost, either to us or the airlines.
    Senator Stevens. Now, I'm going to get shot when I get home 
tonight. My colleagues know this. Repeatedly, we have been 
stopped because my wife's name is Catherine Stevens. And it 
comes out, in terms of the No Fly List, as ``Cat Stevens.'' As 
a matter of fact, one time I personally was taken to the 
security advisor because I was checking in the baggage in her 
name--mine and hers--and they took me, too.
    Now, what has been done to really try and find a way to 
deal with this? I believe that we should have those lists, but, 
for instance, it would seem to me that anyone that was making 
such a list would put down ``Cat Stevens, male.'' That doesn't 
take that much change in these lists. Has anyone looked at 
trying to make them more, really, a means of identifying a 
person that is a great risk to the passengers?
    Mr. Hawley. Yes. And that is something that, once Secure 
Flight is up, next year, will be a thing of the past. But right 
now what happens is, when we get a name--for instance, if a Cat 
Stevens and a Catherine Stevens--the Catherine Stevens would 
tell us, and then we'd put a notation in the record that we 
send to the airlines that says, ``This is Catherine Stevens, 
she's not Cat Stevens and don't hassle her.''
    Unfortunately it depends, airline by airline, how their 
individual systems work, as to how effectively that's done. And 
it definitely--we recognize the inconvenience, we--it hits 
people at kiosks and printing boarding passes at home. But that 
is the one piece of the puzzle--that's the cost to the watch-
list system we have now. But, the upside of it is, we have a 
very good reliability in terms of stopping people who are the 
person you want to keep off the airplane. We do an excellent 
job of that.
    Senator Stevens. I have a feeling that someone who knew 
their name was on it would find a way to use a false name. It's 
the people who use their own name that are the ones most 
affected by the purge list today.
    Mr. Hawley. Well, the system is smarter than that, 
actually, and there are a variety of things where that is taken 
into account. And I'll just leave it at that in the public 
session.
    Senator Stevens. All right. One last comment. Your 
testimony indicates that you dealt with the passenger redress 
concept, reducing the delay from 60 days to 10 days. And in the 
absence of these new concepts, such as Secure Flight and 
Registered Traveler, is there any other solution to dealing 
with the people who have been denied boarding passes?
    Mr. Hawley. Well, working with the airlines to help with 
their matching process is something we are doing; and that--
that's probably the next-best thing that will happen prior to 
introducing Secure Flight. It's having the sophistication of 
the matching software that would identify--as you point out--
this is a male, or this is a female, or other characteristics. 
So, until we get Secure Flight up, it really is a function of 
how well we can get the matching to work consistently across 
airlines.
    Senator Stevens. Thank you very much.
    Thank you Mr. Chairman, I've asked that my statement appear 
in the record.
    Senator Rockefeller. It will be done.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska

    Chairman Inouye, thank you for scheduling this hearing today. Being 
our first hearing in the new Congress, I would like to welcome the new 
members to the Committee. Welcome.
    Mr. Hawley, thank you for your willingness to appear before the 
Committee and for your tireless work to secure our Nation's 
transportation systems. While you have made tremendous strides, TSA 
must continue to press forward by focusing on a risk-based layered 
aviation security system, and developing and maintaining a workforce 
that is flexible and proactive. The American taxpayers have invested 
substantially in security over these past 5 years, and some may 
question the rate at which significant measures, such as passenger pre-
screening programs, have been implemented. We must work together to 
develop the appropriate solutions to these issues.
    The 9/11 Commission was tasked, in part, with setting a benchmark 
for aviation security, but the real-world applications and solutions to 
many of the Commission's goals remain a significant challenge. In 
December 2005, the 9/11 Commission issued a report card on the 
implementation of its recommendations and gave TSA very low grades in 
transportation security categories. Although we have come to realize 
over the years that in matters of security, there is no ``one simple 
solution,'' this does not mean that more progress in certain critical 
areas should not be made.
    I have maintained that true improvements in our aviation security 
system rest on the promise of technology development and deployment. 
Today, U.S. airports screen an annual 535 million parcels of checked 
baggage for explosives. That number will certainly increase in the 
coming years. The projected growth and changes in our aviation system 
also call for a new and focused direction for both safety and security. 
We need to be proactive and find ways to finance the deployment of 
proven and effective technologies, in an innovative fashion. Similarly, 
we need to encourage the private sector to develop inventive, 
integrated and interoperable solutions.
    We must find these solutions while being mindful of the required 
delicate balance between implementing tough security measures and the 
effect of these regulations on the Nation's economy. One such issue 
which has proven challenging to all entities involves the screening of 
100 percent of air cargo. The U.S. air cargo supply chain handles more 
than 50,000 tons of cargo each day, of which 13,000 tons, or 26 
percent, is designated for domestic passenger carriers. We are tasked 
with delivering a common sense solution that meets the goal of 
balancing enhanced security without excessively impeding the normal 
flow of commerce. Shutting down the movement of goods is not 
acceptable--but creating unrealistic and unattainable deadlines is not 
the answer.
    Thank you, Mr. Chairman. I look forward to working with you to 
address these challenges in the new Congress.

    Senator Rockefeller. I want to, at this time--not for the 
purposes of questioning, but for the purposes of courtesy--to 
recognize Senator Klobuchar, Amy Klobuchar from Minnesota. This 
is your first meeting with this committee, and I think you'll 
find this the most exciting Committee that you're on.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Senator, I look forward to serving on 
the Committee. Thank you.
    Senator Rockefeller. We look forward to having you here, 
very, very much.
    Mr. Hawley, we had a chance to talk, at some length the 
other day, in a secure situation, so use your discretion as you 
answer these questions. There was a question of the cargo 
supply chain, and--if that's international, then it's where 
it's loaded, perhaps it was loaded on a truck to then be loaded 
on an airplane in a foreign port, foreign airways, and then 
there's a question of off-loading. Now, once you've off-loaded, 
I would think that that responsibility comes to an end and 
there should have been a really good check in the system.
    The problem is that TSA's computer models estimate that, if 
you do full physical screening just at the end of destination 
in an airport in our country, that you can only really do 4 
percent of the daily volume. And the reason for that, 
evidently, is because of equipment breakdowns, inspection 
problems, reassembling what you take apart to look at for 
transport, and all the rest of it. But 4 percent is not very 
encouraging.
    Now, we discussed that in a number of ways, but I'd like to 
have you answer that.
    Mr. Hawley. Sure. The detail on the operations is what 
really will determine whether it's effective or not, because if 
you say it's 100 percent of electronic screening or box opened 
or whatever the definition is, there's a difference of--if you 
go through and just open the lid in every box, that's an open-
box inspection--which is different from if you pull out the 
stereo speakers and look inside the, you know, the battery 
compartment or you take it apart. So, you could say, ``Well, 
we're going to run every one of these packages through an x-ray 
machine,'' which may or may not get at the threat you're 
looking at. So, that's why we prefer not to have a 100-percent 
requirement on anything, because you tend to be focused, then, 
on, ``How do we accomplish what is written in the law?'' as 
opposed to a smarter security that says, ``OK, we're in a risk-
based business. How are we going to stop the bomb from being 
here?''
    So anything that switches off the brain is, I think, a bad 
thing, and to replace it with a risk-based scenario, where we 
actually have engagement on how we screen and it, I think, it 
is a better--So, I think 4 percent is too low, period, by an 
order of magnitude. And we definitely are on the program. This 
is a serious priority of ours, and we are elevating security.
    So, we're very comfortable working with the Congress on 
achieving the objective. The part that really gets me concerned 
is when we embed in the law 100 percent, because then that 
restricts, really, what you do.
    Senator Rockefeller. I understand that. At the same time, 
when you say this is sort of a risk-based assessment, that can 
be pretty hard to do. I mean, people can now break things apart 
so that each of the individual parts mean nothing, but when 
they're assembled they become a dangerous weapon.
    Mr. Hawley. Yes. Well, it depends what you're looking for. 
If you're looking for a bomb that's going to blow up the plane, 
that's an easier thing.
    Senator Rockefeller. Well, they couldn't possibly blow up a 
plane because it's in many pieces, but it may be shipped with 
the idea of doing damage once it's landed.
    Mr. Hawley. Exactly, so that would--if you're going to--
that's a very hard assignment to figure out, operationally. So, 
that would be an enormous cost. And right now, our focus is 
principally on explosives. The TSA function is to make sure 
there's not a bomb on the plane that's going to take down a 
passenger aircraft. So, it's the--Customs and Border Protection 
handles the ``what's in the box'' and whether it's legal or 
illegal, and that is a different regime, not covered by what 
we're talking about here.
    Senator Rockefeller. If one's dealing with risk, one is 
making a judgment of what part of a piece of baggage or cargo, 
et cetera, might be more dangerous than another part, or what 
is it that we have to focus on. Now, that can be done from two 
points of view. One would be that we know how to get the really 
dangerous stuff, and so, don't go at the rest of it; or one 
could argue that Homeland Security is, in my judgment, vastly 
underfunded, and, therefore, you're forced to make a risk 
assessment, because you can't do all of what, in fact, you 
would like to be able to do. And I wonder if you could just 
help me, a little bit, to understand that.
    Mr. Hawley. I think, as a security matter, even if we had 
unlimited resources I would probably not suggest the 100-
percent standard. And I think a way to look at it is--I 
mentioned, on packages that are targeted for specific flights--
on packages that are targeted for specific flights, they're 
screened the same way as a checked bag. So, that is a higher-
risk package because somebody says, ``I want this package on 
that flight.'' And if we have a controlled supply chain that we 
know the people shipping it and know the people carrying it, 
and it could go on any flight, and perhaps even be trucked--
that, then you'd say there's a lower risk to that, because the 
person packing the box did not know whether, in fact, it was 
going to go on a truck or an aircraft. So, that that kind of 
trade-off, you can make. And I think, as we discussed, and as 
you raised with me, there is the concern of other people at the 
airport, in terms of insider threat, so that if you spend all 
your resources opening boxes and not applying your resources 
more generally, that opens up another vulnerability.
    So, I think that it applies not only in what boxes you 
open, but where you put your security resources, so there's no 
other area that's wide open, because the adaptive terrorist 
will go there.
    Senator Rockefeller. All right, well, my time is out and, 
for the moment, in the second round I'm going to talk a bit 
about general aviation.
    Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    I just have a few questions about the TSA. One of my 
impressions of the TSA is that TSA seems to react to the latest 
security breach or the latest thing that's in the media. What 
can the TSA and the aviation industry do to anticipate what's 
coming down the road, instead of always be reacting to the 
situation?
    Mr. Hawley. Yes. Well, we of course want to do both, and, 
when we do react, people notice it. But that doesn't mean that 
we don't try to get ahead of it. And I think the liquids plot 
this summer is a good example. And I think it's not widely 
known that, when we were talking about the IED component 
training a year ago, that there was a liquids component to that 
training. And, in fact, we were doing covert testing on liquid 
explosives prior to knowing about this plot.
    So, we have--and as we were just talking with Senator 
Rockefeller--as we have security measures that we can move 
around in unpredictable fashion, it covers both what we know, 
but also can disrupt what we don't know.
    So, the connection with the intel community is critical for 
us, that really starts our day, the connection with the intel 
community, and then operationalizing it at TSA to try to get 
ahead.
    Senator Pryor. About 11 months ago, Cathleen Barrick from 
the GAO came here to talk to the Commerce Committee about 
implementing the Secure Flight program and some of the 
challenges that remain there, and then, I guess, last month TSA 
issued the Secure Flight Report. And one of the concerns that 
the GAO had was privacy. And my question for you is, do you 
think that the Privacy Office report addresses the GAO concerns 
sufficiently?
    Mr. Hawley. Well, the report that just came out referred to 
an incident that was prior to the GAO reports. The GAO report--
and this recent one--were on the same topic. And when I 
mentioned in my opening statement when I was here last year and 
called, basically, a halt to Secure Flight until re-baselined 
to protect privacy--we were all talking about the same thing. 
And we are on the same page now, going forward, with what the 
privacy requirements are. And we have now completed that re-
baselining so we're prepared to move forward. And GAO will be 
evaluating us going forward, and we have a lot of engagement 
with them right now.
    Senator Pryor. What is your time-frame on moving forward 
and having some sort of final set of rules out there?
    Mr. Hawley. Well, we expect to begin implementation in 
calendar 2008.
    Senator Pryor. Implementation in calendar year 2008, but 
early 2008? Late 2008? What, where?
    Mr. Hawley. Well, a lot will depend on the rule. And there 
has been so much public anxiety about this topic that we're 
very confident people will have a lot of comment. And that will 
dictate a lot of the time right there.
    Senator Pryor. We've talked a little bit about the 9/11 
Commission recommendation of screening everything, but part of 
their recommendations deals with individuals who have been 
selected for secondary screening. And I guess the 9/11 
Commission believes they should all undergo explosives 
screening. But that's not what TSA has been doing. You guys 
have apparently been screening passengers by an observation 
technique, is that right?
    Mr. Hawley. Yes, that's on top of the other screening.
    Senator Pryor. OK, do you conduct explosives screening for 
every passenger that's been pulled out for secondary screening?
    Mr. Hawley. Yes, sir. For secondary screening, we do random 
explosives checking of every passenger.
    Senator Pryor. And are your TSA people out on the front 
lines, are they trained to do this kind of screening?
    Mr. Hawley. The explosives screening, absolutely.
    Senator Pryor. And are you happy, generally, with what you 
see? Are you satisfied with what you see from your TSA 
screeners?
    Mr. Hawley. I am very proud of the work that they've done, 
particularly in the last year. I'm extremely, very positive on 
it.
    Senator Pryor. Well, the reason I ask is because, our 
office receives complaints from time to time, various screeners 
or various airports where things just don't seem to be working 
very smoothly, but you're satisfied with the screeners?
    Mr. Hawley. I am, and I think the night of August 9th, 
10th--these guys we woke up in the middle of the night and 
said, ``Come to work and change the entire security process, 
and forget about vacation or anything else for the foreseeable 
future.''
    Senator Pryor. Are you saying that the system we have 
cannot be improved upon?
    Mr. Hawley. Oh, absolutely. I think we have great people, 
we've now started to improve the training, we've put incentives 
to keep the good people in. And those kind of things, reducing 
injuries, all of those things make for a better workforce.
    Senator Pryor. And you feel like the workforce is getting 
better?
    Mr. Hawley. Yes, sir.
    Senator Pryor. That's all I have. Thank you, Mr. Hawley.
    Senator Rockefeller. Thank you.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you, Mr. Chairman.
    And just a couple of things first; and one is to say that, 
in front of this hearing, this first of the year, that I want 
to pay our commendation to Senator Stevens for a lot of good 
work in chairing this committee, and other committees. Not that 
we're sorry to see the change, Senator Stevens, but the fact is 
that you did--to borrow an expression--a heck of a good job.
    And, Mr. Chairman, my congratulations to you as well, for 
taking over this very important subcommittee.
    Mr. Hawley, you made a comment in response to Senator 
Pryor's question that said, ``We have a random check on every 
passenger,'' I'm not quite sure I----
    Mr. Hawley. Every passenger is subject to a random check. 
So, in other words----
    Senator Lautenberg. Can be, have a----
    Mr. Hawley. Yes, yes.
    Senator Lautenberg. I see. OK. And I think it's fair to say 
that there has been a real improvement in the TSA process, the 
screener process, and we're pleased to see it.
    I have a question, however, about the complement that is 
necessary to do the job. We're looking at 2 million people a 
day boarding airplanes, over 750 million in the air--2015, I 
think, it's expected there'll be a billion passengers a year 
flying. We're breaking all kinds of records for air travel. And 
we have a limit of 45,000 screeners, and we don't have that 
many people working, how many people do we have employed right 
now?
    Mr. Hawley. A little bit under 43,000--it depends on full-
time equivalent, so our cap it comes out to 43,000.
    Senator Lautenberg. The cap or the dollars?
    Mr. Hawley. The dollars. So, the cap says you can't have 
more than 45,000, but the money, if you spend it, only gets you 
43,000. So, the cap is effectively at 43,000.
    Senator Lautenberg. Could we use more screeners than that?
    Mr. Hawley. Well, I think we are not bumping up against the 
cap and limiting our operation because of that, at this point. 
And I think, you raised the issue of--as traffic grows--at some 
point there is a limit. But we've been having a lot of 
efficiency gains in the workforce, better scheduling and better 
metrics that allow us to manage better, so, so far we're able 
to manage it by--take the greater number of passengers with 
operating efficiency. So, at this minute, it's not a problem. 
As passengers grow, it certainly is a subject of conversation.
    Senator Lautenberg. What's the turnover rate within TSA?
    Mr. Hawley. It's about 20 percent overall, but the critical 
part is the part-time. So, we're about 16.5 percent on the 
full-time and about 38 percent on part-time.
    Senator Lautenberg. Is that a heavy load?
    Mr. Hawley. Well, the----
    Senator Lautenberg.--those, those billets?
    Mr. Hawley. No, actually, we're able to fill the jobs. It 
costs us $12,000 every time we hire and train. So, any 
turnover--particularly in a part-timer--is a bad deal. And what 
we want to do is get people in who will stay, and last spring, 
as you may know, we went to a local hiring model which has 
allowed us--that in itself gets us a higher retention rate.
    Senator Lautenberg. That's a very, that's a very high rate 
as it is. Twenty percent or sixteen percent turnover in a 
workforce, that's not a lot.
    Mr. Hawley. Well it--pre-9/11 it was 140 percent.
    Senator Lautenberg. Well, that doesn't, that's not a good 
mark to go to. You're looking at the possibility of turning 
over 9,000 people, eight to nine thousand people a year, that's 
quite an assignment.
    I had asked to have the cap removed and we had a vote on it 
which was overwhelmingly approved in the Senate, to lift it up 
to 45,000 to try to accommodate the needs of the passengers. 
And I think it's generally thought that if we could get 
security review time down to 10 minutes, that would be a good 
objective. Is that achievable?
    Mr. Hawley. Yes, sir. And by and large, we are achieving 
that. And I think the Thanksgiving and New Year, all of those 
high travel times, we did manage to get through without 
unreasonably long lines.
    I'm very mindful of this issue, and my obligation to come 
forward if I believe there is a security impact. But right--as 
of this moment--I'm comfortable with the package that we have 
now.
    Senator Lautenberg. Well, the fact of the matter is that I 
fly almost weekly between here and home, and I see lots of 
times when the security lines are far more than 10 minutes in 
the Newark Airport, North Liberty and we're short, I think, 
about 100 TSA screeners. And, is that an exception, or is that 
more likely around the country?
    Mr. Hawley. Well, we have to delve into the number, but 
according to my information, we're not under, significantly 
understaffed at Liberty Airport.
    Senator Lautenberg. What did you say?
    Mr. Hawley. Yes, there may be a reduction of the number 
from last year. We have the screener allocation model, as you 
know, and that would be at X. And it may, in fact, be below X 
in 2007----
    Senator Lautenberg. I'd have to look at that, Mr. Hawley, 
because it's been a continuing problem.
    Mr. Hawley. I'll look at it as well.
    Senator Lautenberg. I'm very close to the management at 
Newark Airport. So we, how many people do we have in training 
at a time?
    Mr. Hawley. I don't know off the top of my head, but it 
would be to replenish----
    Senator Lautenberg. Right. So does that say that there are 
more than 43,000 people?
    Mr. Hawley. No.
    Senator Lautenberg. If it's less than 43,000, then you 
don't have 43,000 screeners, then.
    Mr. Hawley. But, we look at it checkpoint by checkpoint. 
And it varies by time of year, and all sorts of things, so the 
number moves all of the time. And we look at it down at the 
granular level for the checkpoint for the airport, as opposed 
to the overall number.
    The overall number, we say, we just can't go over the cap, 
and we're not close to that.
    Senator Lautenberg. Mr. Hawley, I suggest that you review 
this.
    Mr. Hawley. Yes, sir.
    Senator Lautenberg. And get back to us with that. Mr. 
Chairman, I ask unanimous consent that an opening statement 
that I wanted to submit be included in the record.
    Senator Rockefeller. Without objection.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey

    Mr. Chairman, thank you for holding today's hearing on the safety 
of our skies--and the 9/11 Commission's recommendations for improving 
it. The 9/11 Commission gave the Bush Administration a report card on 
aviation security.
    When it came to screening passengers for explosives, the government 
earned a ``C.''
    And when it came to screening their bags and cargo, the government 
earned a ``D.''
    Those grades show we do not have enough screeners working in our 
airports--and we do not provide those screeners we do have with the 
training or technology they need.
    We need to give the Transportation Security Administration the 
resources it needs to protect the Nation's aviation system. Right now, 
the TSA has less than forty-five thousand (45,000) screeners in 
airports from Burbank, California to Bangor, Maine. Forty-five thousand 
is not enough.
    Across our country, more than two million people fly every day; 760 
million people fly every year. By 2015, our aviation system is expected 
to carry one billion passengers a year.
    Forty-five thousand screeners cannot get one billion people through 
security and to their gates on-time.
    We need more screeners. And we need them now.
    I offered an amendment to the SAFE Ports Act in September to lift 
the arbitrary cap on the number of screeners that TSA can hire--and to 
get the right number of screeners into our airports, helping passengers 
make their planes. The Senate passed my amendment by a vote of 85-12. 
But House Republicans gutted it from the final SAFE Ports bill--and 
replaced it with a provision on Internet gambling.
    We should not be gambling with aviation security.
    America's travelers want this cap on screeners lifted. I plan to 
offer legislation again to do that.
    In 1990, I served on the Pan Am Flight 103 Commission--and we 
looked into the disaster that killed two-hundred-and-seventy people 
over Lockerbie, Scotland. Back then, our commission found that we 
needed better screening for explosives. Seventeen years later, I am 
still saying that same thing.
    It's time to stop saying we will get it done later. It's time to 
start acting on it now. It's time to let TSA hire as many screeners as 
it needs to keep our skies safe.

    Senator Rockefeller. Senator Klobuchar?
    Senator Klobuchar. Thank you.
    Secretary Hawley, as a former prosecutor running an office 
of about 400 people, I have some sense of the challenges you 
have, in terms of employees and in terms of the setting of 
priorities and the need to triage things. And we certainly have 
that every day in our office.
    And I also see the changing world and how you have to adapt 
technologies. And we went from crooks using crowbars to having 
them use computers. And I've always said, we're as 
sophisticated in getting the crooks as the technology that we 
have. And we have to be as sophisticated as they are.
    So, along those lines, my question is about the TSA-run 
passenger pre-screening and how quickly do you think we're 
going to be able to get an effective pre-screening system as 
the 9/11 Commission recommended?
    Mr. Hawley. The key question of matching terror watch lists 
against passenger lists, that's happening today, run by the 
airlines. So, in terms of a security impact, anybody who's 
known to the Government as somebody who should not be flying 
is, in fact, today not allowed to fly. Having said that, we 
want to replace the current system with what we call Secure 
Flight, which is a Government-run program, which doesn't 
involve us sharing watch lists. So, it's a better system.
    And, we had a huge privacy issue, as you know, over time. 
And last year we went back and just re-did the whole program to 
make sure it was solid on the privacy thing. That's done now, 
and now we're moving forward. So in 2008, we expect to be able 
to deploy Secure Flight finally, and take it all in-house.
    Senator Klobuchar. So, the time-line is to get it done by 
2008?
    Mr. Hawley. Yes, ma'am.
    Senator Klobuchar. OK. My second question is along the line 
of Senator Stevens' ``Cat Stevens'' question--and that's based 
on my own personal experience. I had two hip replacements this 
year because of something I was born with, in the middle of the 
campaign, I might add, and so I am personally familiar with all 
of your screeners on a very intimate basis.
    Every time I go through the checkpoints, and I can say that 
they do a very good job, and I am in no way thinking that 
people should get special treatment, I think that it's 
impossible just to have someone give a card. But I hang out at 
these screening points with people that are much older than 
myself who have had joint replacements. And I was just 
wondering if there's any technology being developed to be able 
to help people with these hip and knee replacements go through 
security. I'd say about 10 minutes is spent on each one of them 
after they go through security. And again, I don't come from 
any complaints, I think it's the right thing to do. But as we 
move forward and try to triage our resources, and as more and 
more people are getting knee and hip replacements, if there's 
some thought to technology in this area?
    Mr. Hawley. Well, there is technology, and it comes with a 
cost--the famous backscatter technology is one that would be 
well-suited for this. There's also millimeter wave. Backscatter 
technology is famous because there are those who believe it 
shows too vivid an image of the person. So, there's that kind 
of a trade-off. But the short answer is: Yes, there is 
technology that does address that. It does come with other 
issues as well.
    Although I have to say, I think the behavior observation--a 
lot of the person-related screening, as opposed to ``are you 
carrying something'' screening--is really where we've got to 
go. Because we can't just keep taking away things from people 
based on--that we think they could use it as a weapon. So, we 
have to keep the clear weapons out of the way, no explosives, 
but get an opinion about the person and that, I think, is where 
we have to go.
    Senator Klobuchar. Thank you, Mr. Secretary.
    Senator Rockefeller. Thank you, Senator.
    Senator Stevens?
    Senator Stevens. Thank you very much.
    I was just sitting here wondering if you could give us an 
update on the concepts of the frequent traveler, or the special 
access that we've been thinking about over the years. Is it 
going to be possible?
    Mr. Hawley. Yes, sir. It's--it is now, essentially, in 
operation. And one of the providers is rolling it out in 
airports this week. So, when I was last here we said it was 
going to be a private sector program. And that has happened, 
we've done our security piece. And one of the unsaid things 
about this is that the private sector developed a credentialing 
program that involves biometrics, without a penny of cost to 
the Government, that is now up and operating for the RT 
program, but conceptually could be used for other programs as 
well.
    So, I think everybody wants to know about shoes, coats and 
laptops, but there are other benefits to Registered Traveler 
that have already come to the fore. So, it's operating now.
    Senator Stevens. You say you're going to be able to get a 
program that will take care of the problem of laptops? I don't 
understand.
    Mr. Hawley. No. The frequent traveler would prefer to keep 
shoes on, keep the laptop in their briefcase, and keep the coat 
on. And we're not yet at the point where we can accommodate 
those requests, so that tends to be where the discussion is: 
``Why do I have to still take off my shoes?'' And we're now 
testing a shoe scanner that is at one of the facilities that's 
rolling out Registered Traveler to see whether that helps with 
the shoes. And we'll keep moving as we can get technology to 
make it easier and easier. But we have already done the 
biometric certification and we've got the program now running, 
and it's up to airports as they decide to roll it out, to come 
forward.
    Senator Stevens. Will those people still be subject to 
random search?
    Mr. Hawley. Yes, sir.
    Senator Stevens. Thank you very much.
    Senator Rockefeller. Senator Thune, from South Dakota, we 
welcome you to this committee, I think you'll enjoy it a great 
deal and will add a great deal to it.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, I appreciate being 
added to the Committee. I'm kind of the newbie here, and I'm 
anxious to take on many of the issues that this committee deals 
with, many of which directly affect my state. So I'm grateful 
for the opportunity to serve on the Committee. I look forward 
to working with you, the Chairman, and the other members of--
the Ranking Republican on the Committee--on the issues of 
importance to our country and to our respective states.
    And I appreciate the hearing this morning. And I guess what 
I would simply say with respect to this morning's hearing, Mr. 
Chairman, is that one of the things that I hear quite often--I 
also serve on the Armed Services Committee--is that you cannot 
succumb to the tendency to prepare for and fight the last war.
    And Mr. Hawley, I appreciate you being here today and 
responding to questions, and I think that's something we always 
have to keep in mind, too, is how do we anticipate what the 
next threat is to our security, to passenger safety on our 
airlines.
    And I would like to direct a couple of questions, if I 
might, to you with regard to some of the changes that have been 
put in place, and how they bear on smaller airports. In my 
state of South Dakota, we are a state with smaller population 
centers, and air service into and out of our state is somewhat 
limited--relative to what I would like to see it be. I'd like 
to see a few more direct flights from Sioux Falls to 
Washington, D.C.--I don't think I'm going to see that any time 
soon--but I do think it's important that we evaluate, always, 
how these policies that we put in place are impacting smaller 
airports.
    I guess I'm interested in knowing if there were any 
differences with regard to some of the changes that were put in 
place last summer regarding gels and liquids, and the response 
in smaller airports in comparison to large airports. Did TSA 
see any difference in how capable our smaller airports were at 
implementing the new screening protocols? Were smaller airports 
perhaps more nimble and quicker in terms of adapting to these 
new changes? Or were they behind the curve in terms of having, 
perhaps, fewer resources to throw at it?
    Mr. Hawley. It's pretty even across the system and we are 
testing, a part of--we do covert testing--and the bulk of our 
covert testing is at larger airports but we are checking 
airports of all sizes to be able to answer that question. 
Overall, it is remarkably consistent and it needs to be, 
because obviously you start at a small airport, you could end 
up anywhere.
    One of the changes--one of the things is that we do custom-
tailor the security for the airport. In the area of document 
verification, in 200 of the smaller airports, we now have a 
trained Transportation Security Officer (TSO) checking the ID 
and validating the credential, versus an outside contractor.
    So, we've been able to work with a lot of the small 
airports to say, ``Why don't you guys carry the bags, that's 
not a security function, and we'll take over the identity 
verification?'' And that is, I believe, an increase in 
security. And it's something that we've been able to work out--
in the smaller communities, it has a bigger impact in the 
larger airports because of the cost. So if you were to say, 
what's the biggest difference small to large? I would say that 
would be it. But it's not a requirement, it's really a business 
practice.
    Senator Thune. And you had mentioned in your testimony that 
the TSA is introducing some new programs focused on developing 
specialized skills in the TSA workforce, including training of 
behavior detection officers, and bomb appraisal officers. I 
guess I'd be interested in knowing as well, are there plans in 
place to ensure that smaller airports are receiving that type 
of specialized training for their TSA staff as well?
    Mr. Hawley. Yes, although the direct answer to your 
question is it's not at the top--the first roll-out of the 
behavior detection will be at the larger airports, but the plan 
is to train everybody in the base level of that skill, and then 
add the more advanced on top of that. So it's not excluded, but 
it's not, frankly, at the top of the priority list at this 
point.
    Senator Thune. I appreciate that.
    And Mr. Chairman, as I said, I'm looking forward to the 
opportunity to serving with you all on this committee, and 
probing some of these difficult and challenging issues that we 
face.
    So, I thank you for your testimony and for your response to 
those questions.
    I yield back my time.
    Senator Rockefeller. Thank you, Senator, and I resonate 
with your Sioux City-direct-to-Washington flights--West 
Virginia and South Dakota, which are two of the more rural 
states in America, as we both know.
    Mr. Hawley, a couple of questions: There is a tendency on 
the part of Members of Congress and, obviously members of the 
public, to try and speed up the system, almost at any cost. And 
I, frankly, would just prefer to see you doing what you can 
possibly do as well as you can do it, even if it takes longer.
    Now, let me give you an example. We were discussing a 
moment ago the situation where Catherine becomes Cat, I was on 
a shuttle yesterday from LaGuardia with my Chief of Staff whose 
first name is Carrie, and they had down only a Catherine. One 
of the TSA screeners said, ``I'm sorry, I can't let a Carrie go 
through when we have a Catherine down.'' Now, we were literally 
minutes from missing the shuttle, which would have caused me to 
miss two votes, or three or five or whatever it was yesterday 
afternoon. And I was thinking, as this was sorted through, that 
it was exactly what should be happening. That your screener, 
who was just at the part that you enter, she looks at the names 
and make sure that the identification is right. It would have 
been irresponsible had she allowed the Carrie H. to go through 
without knowing that it was actually Catherine H. And I think 
those kinds of things make enormous differences.
    The speed with which we do things--getting into the fast 
lane, all of that--are tremendously important, but this all 
comes from 9/11 when two large, fueled airplanes, or three--
actually four--attacked. I think that airlines are still very 
much the weapon of choice--airplanes I would say--are the 
weapon of choice. I think it'll spread, dirty bombs, things of 
that sort, I think they're all part of our future.
    But, in the meantime I think we just have to do it right. 
The focus has to be transportation security and airline 
security.
    Now, we were discussing the 45,000 cap limit, and then that 
sort of nudges me toward general aviation. I believe that about 
three-quarters of all the flights in the air at any given 
moment in the United States are general aviation. The 
percentage of those which are over a certain weight limit or 
under a certain weight limit, I'm not exactly sure. But that 
involves some 19,000 airports at which general aviation planes 
are likely to land, only in our own country.
    In the times that I've used general aviation, I think only 
once in my life have I ever gone through a passenger thing. I 
find this very disturbing, and I talked about it very openly 
with the general aviation people who are not anxious to see 
changes made, but understand that they have to do their part, 
too.
    You have a program about that, and in our discussions the 
other day, I think you talked about that--you're going to have 
to have a lot more than 45,000 people if we do general 
aviation, which is excluded at this point. I don't understand 
the reason for that. I have a son who lives in New York, and 
when that single-engine plane went into a building, it was a 
building right next to where he was, and it was a single-engine 
plane. Well, in fact, it turns out that most general aviation 
is single-engine airplanes.
    Now, you make cutoffs, and if this is a secure matter and 
you can't talk about it, then don't. But I think the matter of 
making sure that general aviation goes through approximately 
the same process--or at least something that measures the 
standards of passenger screening, of pilot identification, 
what's going onboard--is very much a part of our future. And if 
it is not, then we're not taking the lessons of 9/11 seriously.
    Your comments, sir?
    Mr. Hawley. Well, I think we agree that we can have no 
doors completely open. And I know we agree on the topic of--we 
have to be concerned about other threats than blowing up a 
plane, other kinds of weapons. And Secretary Chertoff has made 
it an unmistakable priority at DHS for me and my colleagues at 
other DHS entities. And so we are looking at what are the steps 
we take in the short term that would measurably improve 
security as we figure out the longer-term issue? And I think at 
the end of that spectrum is the physical screening of 
passengers getting on GA airplanes.
    But there are a lot of security measures, there are 
security measures in place about security on the ground, but 
there are a number of gradations that we can ratchet up. And 
frankly, we plan to over the next year--and are in conversation 
now with the GA community about--what we can do operationally 
now as we develop some of the issues going forward.
    Senator Rockefeller. But that doesn't really answer my 
question, and I've overrun my time. So, I'll return to my 
questioning after Senator Lott has a chance to ask questions.

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Well, thank you, Mr. Chairman. And I 
apologize for my tardiness, but we were marking up the small 
business benefits part of the minimum wage increase and I 
wanted to participate in that. But thank you for having the 
hearing, I'm looking forward to working with you on aviation 
issues.
    It's good to see you again, Mr. Hawley, thank you for 
coming and for the job you've been trying to do. It's not an 
easy task--everybody's expecting you to do more, sometimes 
less, improve efficiencies, make us safe, and it's a real 
challenge.
    I don't want to repeat the questions that have already been 
asked. First, just my continued admonition, and that is to 
insist that your decisions make common sense, and that your 
workers use common sense. Because that's the biggest problem I 
run into sometimes at airports. What goes on just doesn't make 
common sense in terms of who you check and how they're checked.
    I always kind of enjoy the fact that my wife almost always 
gets snatched out of line, and just to make her madder, I take 
on down the hall waving at her as I leave, and she doesn't 
appreciate that. But, you know, from various reasons, for 
instance, when she's trying to go through the line, her ticket 
may be in the name of Tricia Lott, but her name, her ID card is 
Patricia T. Lott. And somehow or other, the person at the 
counter doesn't get it--that it, you know, look at the picture, 
yes, it's the same person, common sense is still a problem we 
run into.
    With regard to cargo vulnerabilities, I know you've been 
working on that. And one suggestion that the Commission made 
was to have at least one blast-proof cargo container on every 
passenger plane carrying cargo. I think I understand from the 
staff, you said earlier that part of the problem is that cargo 
is on pallets quite often, and you can't get it through a 
scanner. This makes common sense. Have you looked at that 
possibility?
    Mr. Hawley. Yes, sir. There is a pilot ongoing right now on 
that, and that gets me--we talked a little bit earlier in the 
hearing--about risk-base. And that is one of the ways we can do 
it--put in place something more quickly--is to say, for 
packages that we're more concerned about, we put them in the 
blast-proof one and that's a mitigation measure.
    The issue, of course, is how much they weigh, and it's my 
understanding there's a new version coming out that would be 
significantly less in terms of weight, but as good in terms of 
bomb-proof.
    Senator Lott. Well, composite materials now are much 
lighter and not as heavy and they're more resistant to blasts.
    Mr. Hawley. No, it is definitely something that we're 
looking at, and there is a place for it in the solution.
    Senator Lott. Well, I think Congress is going to be pushing 
on this subject. We need to try to get ahead of the curve to 
come up with some improvements there.
    Now another area, see, I believe a lot of what we need is 
technology. We've been slow in moving the technology. I know 
there's a cost factor--some of the technology is new and 
unproven, and then you always run into, or sometimes at least, 
a privacy consideration.
    For instance, I understand you're developing the whole body 
backscatter x-ray imaging systems to improve the detection of 
explosives carried by passengers, but some people are concerned 
about privacy requirements. You're trying to address that. I've 
looked at that technology, and you know, it's pretty amazing 
how effective it is in how you can pick up even the smallest 
thing that a person might have in their shoe or on their 
person. And I know we get into these privacy considerations, 
but if I run the risk of being blown out of the sky, I might 
make, you know, a little concession in terms of this.
    I realize--look, when it comes physique, I'm embarrassed by 
what the scanner shows. I mean, I look pretty pitiful. But 
again, I think your specifications don't cover the field of 
technology. I think this is a technology that we need to move 
aggressively to. So how are we doing on that?
    Mr. Hawley. Well, we've got two major suppliers, both of 
whom are, you know, in a horse race, so to speak. But that 
gives some competition to the marketplace, and we're testing 
one of them in Phoenix--actually we're testing it now, although 
not actually running people through. We're testing the 
operation capability, the power needs of it, how much does it 
weigh, where do you put the resolution. So, we're actively 
pushing that now, and that will be in operation in Phoenix. So, 
we are moving forward with it on operational testing.
    Senator Lott. That's good, but I think you need to move 
more aggressively. I mean, I was looking at this technology 
back in the summer. It's there, it's available now, we're using 
it at our--or that type of technology--at our ports. I just, 
you know, you need to move more aggressively on some of this 
stuff. Because your biggest cost is the manpower cost. We're 
not going to continue to give you the money you've had. We're 
going to expect you to do more with less and less people, and 
you're going to have to use technology to do that. So, 
aggressively pursue the technology.
    I don't know what the technology is, but I don't understand 
why it's taking so long to implement a program I believe you 
said you were going to do a year or so ago. With regard to--I 
call them frequent flyers--you pay $100, now I understand 
you've got, it's working, a pilot program at two or three 
places----
    Mr. Hawley. We're done. You were unmistakable last year in 
this and TSA has done its part. It's now up to the airports. So 
the program is now available to move forward as the private 
sector wishes to proceed. TSA has done all that it's got to do 
on it, and we're just--we're ready, and we've got one operating 
in Orlando, and there are others that are opening, I believe, 
this week.
    Senator Lott. And it's $100--you have to undergo the check, 
and you have to pay a $100 fee or whatever?
    Mr. Hawley. Well, TSA says, ``We're going to run a 
background check and we're going to charge you $28 to do 
that.'' Whatever they sell the card for is somebody else's 
call. Our part of the cost is $28.
    Senator Lott. Now, what are you saying here, that it's 
really up to the individual airport authority?
    Mr. Hawley. No, it's a private--yes, it is up to the 
individual airport. But it's a private sector-funded program.
    Senator Lott. I don't understand why you wouldn't want to 
do this. I mean, that's one way of thinning out these lines and 
getting a check on people. Why are you saying, ``do it if you 
want to''? I mean, this is something probably we should do.
    Mr. Hawley. Well, it gets to the security value of that 
particular background check. And, we've got 60 million people a 
month coming through, and it doesn't quite get us to the level 
of comfort that we could radically change the checkpoint 
process for the Registered Traveler. When, hopefully, we get to 
that point, I think it will be a slam dunk in terms of its cost 
justification. But for us right now on the security front, it 
doesn't offer enough of a benefit to do less security than we 
now are asking.
    Senator Lott. Well, we continue to need to do more and to 
do a better job. It continues to be an unbelievable hassle at 
the airports. And it's an area we're concerned about, because 
it is a place where we--we're standing in line. And if people 
recognize Senator Rockefeller, for example, they begin to 
explain to him why they're mad about it. And so, we're going to 
be mad at you until you help us deal with that constituent 
complaint.
    And I do understand that it's been difficult, it takes 
time, it takes money, but I do think technology is a key to the 
solution. And we need to move a lot faster in that particular 
area.
    Thank you, Mr. Chairman.
    Senator Rockefeller. Thank you, Senator Lott.
    Let me just pick up on that, technology versus people. I'm 
not sure that the right answer always comes down to technology. 
In other words, as you indicated in your testimony, there's 
nothing better than the human brain. There's nothing better 
than somebody being able to look you in the eye and figuring 
out what you're about, reading your body language. And you may 
have nothing on you that's detectable, but the person may just 
figure you're something of a risk and take you out of line and 
look at you further, and often nothing will come of it, but I 
feel comfortable with that.
    Now, I go through your puffer system or whatever else, and 
I'm impressed with that technology. It's sort of a ``gee whiz'' 
type thing, and it seems to work. On the other hand, it breaks 
down quite a lot, it's very expensive, you can't get them all 
over the place. So, just take the question of people versus 
technology. One thing you don't have a lot of is money, and I 
remind all as I always do--and Senator Lott knows far better 
than I do--that your testimony has been screened by OMB. And 
therefore, you know, you sometimes can't speak as freely as you 
want to, and that's just the way the system works. I regret it 
under any administration, but that's the way that works.
    Can you reflect with me, just a little bit, philosophically 
on people versus technology? There's a madness and a love of 
technology in this country, and I think it's the only thing 
that can get the job done in some cases. And, I think, 
sometimes it can't read things that people can.
    Mr. Hawley. I think where technology is an accelerator, 
that's where we need to focus. And one of the issues that we 
have is that a lot of the technology that we buy now is new and 
that it is when it is most expensive and least reliable. And 
when we get further down the technology curve, that's where the 
real payoff comes. And, I think, the technology solution is 
indispensable. I think the people part is also indispensable--
that a lot of the technology is single-purpose, or focused on a 
particular thing. And as a number of the Senators have 
mentioned, we want to be able to address threats that weren't 
yesterday's threat. And the people--finding somebody with 
hostile intent--is a critical component of that.
    And what we've done--nobody else sees 700 million people a 
year up close the way we do. So, to take advantage of the fact 
that we're interacting, and bring the behavioral science--that 
science--to the fact that we have people already at the 
airport, who we are already paying to elevate the capability, 
and then let them use common sense.
    And I think one of the biggest changes we've made in the 
last year was during the liquids thing--everybody was focused 
on the baggie. But we did go to exactly the common sense 
security that, Senator Lott, you've mentioned before, to give 
discretion for common sense to the front-line officer. And that 
is a major cultural change from going to a checklist 
orientation--where you have to do exactly this and you'll get 
punished if you don't, to ``Here, you're trained, this is a 
threat that could come in a lot of different ways. You make a 
threat assessment, based on your common sense.'' So, I think 
the human intuition is immediately available--we are using that 
in training. So, for the next 2 years, I think that is likely 
to be the bulk of it. And then, as the technology moves on the 
technology curve--which is probably a year and a half, 2 years 
out--that will then tilt the balance.
    Senator Rockefeller. Let me get back to the general 
aviation situation.
    I indicated I didn't think you'd answered my question. And 
it may be that you can't because, again, because of security, I 
don't know. But let me just ask it more simply: If three-
quarters, approximately, of airplanes in the sky at any given 
moment during the course of the day are general aviation, and 
so much of our resources--or virtually all of our resources--
are going into the other 25 percent. There is nothing written 
in the book that says that a small jet or some large propeller 
plane or a single-engine plane can't do catastrophic damage. 
Now, it's a question in some cases of fuel--the larger the 
plane, the more fuel, therefore there's an instinct to go to 
the larger plane because it will carry more fuel. And the other 
one would be--a smaller plane could be carrying something which 
was an explosive device that had nothing to do with fuel, but 
had its own timing system and all of the rest of it. What, in 
fact, is being done by the general aviation community, in your 
judgment, and what do you think that we need to do, if you have 
the resources? No--what do we need to do as a government in 
terms of general aviation? And do you have the resources to do 
the Government's part?
    Mr. Hawley. I do understand your question, and I don't 
think there is a--there's not a classified problem--so if I'm 
not answering, it's not that.
    I know what you're talking about, I think it is something 
we take very seriously. Secretary Chertoff has it very high on 
his radar. And so our approach is, ``Let's get incremental,''--
we've got to do a serious job of securing that so-called supply 
chain, as well as the other.
    And it is a very different, different bird, as you say, 
given that there are many, many, many small--and we've started 
with the approach of securing the physical airport itself. We 
also screen the pilots, individuals who are certified to fly 
them. And we're getting at it from that perspective.
    The question we need to work out with the community is, 
what is the security benefit of screening every individual 
passenger in some format? It's sort of like hazmat trucking, 
that if you say terrorists are only going to use trucks that 
are certified for hazmat, then you're not cognizant of the fact 
that, well, heck they could go steal one that's not hazmat and 
put hazmat in it because they're not afraid of violating the 
law. So, you have to, you have to look at, at the whole 
picture.
    And I would expect that we'll have a more robust plan to 
come back here to you with, it's something we're working on 
now, we're studying that through 2008, but we absolutely 
understand the other point that, that you were making.
    Senator Rockefeller. But it's three-quarters of all 
flights. What is the difference between me--if I were to be 
some danger--getting onto a commercial flight, which is 25 
percent, or getting onto a general aviation flight, which is 75 
percent? Why would one be locked down completely? And I think 
you've done a very good job at increasing security and making 
it--I've been very impressed by your screeners. I don't 
understand how they've gotten better. It's too easy to say that 
they have gotten better. I think you're right--they're both 
polite and they're tough. And, yes, lines have been sometimes, 
and that's part of what security's about.
    But the 75 percent--if an enemy, particularly an Al Qaeda-
type enemy--they always look for the soft places. Now, they 
look for the dramatic places--the Twin Towers--or they look for 
the soft places. One of the two. General aviation is one of the 
soft places.
    Mr. Hawley. OK. Secretary Chertoff's risk basis--you've got 
the large aircraft for use as a weapon, use it as--blow it up. 
One of the impacts on the ``blow it up'' is on the total 
network. So that if aircraft are being attacked by terrorists, 
that will have an impact on the total network of commercial 
aviation, and less so--less network effect in general aviation.
    So, in terms of differences, there isn't--apart from those 
which you already addressed--that would be the principal 
difference. So while they're numerically more, their network 
effect is less. But then when you go to your other payload--so 
to speak--scenario, then that pops up on the consequence chart 
of very, very high, and that--that is the piece of general 
aviation that we're focused on, is to hit that high 
consequences piece.
    Senator Rockefeller. What should they be doing?
    Mr. Hawley. The basics of securing the aircraft, observing 
anything out of the ordinary--all of those basics are 
remarkably effective, at virtually no cost. So that is the 
basic.
    We're doing more in the screening, we're doing more vetting 
of the FAA lists, so we have a certain requirement that is, 
maybe yearly, but we're doing it much, much more than that. So, 
we're able to catch if anybody has changed on the list from 
when it was originally done.
    So there will be a big cliff when it goes from those kind 
of solutions to the, ``OK, now we gotta physically screen 
people who are getting onboard the flight.'' So, there is a 
classified element of this, but I think you've posed the policy 
issue squarely, which is: We can do the things that are 
relatively easy and not expensive, but there is a big next step 
that will cost to take. And I think that is--that's the issue 
that you're highlighting.
    Senator Rockefeller. Is your expectation that we will come 
to that point within the next several years?
    Mr. Hawley. You know, I don't know on the issue of 
passenger screening. If it turns out that that is the way to 
address the high consequence, then absolutely. But what we're 
going to figure out, what we're working on, is how do we 
address the high consequence if it's screening? If it's 
something else, then that's where we'll go.
    Senator Rockefeller. OK. A final question, and I have some 
that I want to submit to you and I have one announcement that I 
have to make.
    With respect to the screeners, I'm actually--it's a 
quizzical matter. Because I can remember, we started with one 
set of screeners, and then we made a very large change, and 
many of them left, and new ones were brought in, and there 
wasn't really any difference in the quality of their work--this 
was some time ago.
    Now, suddenly, things have gotten a lot better. Now, what 
do I mean by that? What I mean is, that they take their time, 
they're polite. That if you have a three-ounce or less bottle 
of fluid, they find that in their screening devices. Even if 
it's in the carry-on bag, they find that, they take it out. 
They say, ``This is OK but it should be in a plastic wrapper,'' 
and in other words, that kind of care is, to me, very obviously 
present now.
    But I would suspect that, if TSA were to take a group of 
their employees, and to send them through the screening process 
with, you know, malevolent material on them, that a lot them 
would get through. And I suspect that would be the case.
    So, the question is, when you're talking about improving 
their nature--I and others can be, you know, we can be 
persuaded by the friendliness, the toughness, the precision, 
their patience--all of those things which I think are 
remarkable--politeness which is very, very hard at the end of 
the day. But, in the final analysis, if the sort of the quiet 
testing that I'm sure goes on in TSA--running people through, 
deliberately carrying things that should be caught, and 
sometimes aren't caught or often are not caught, then that's a 
very different result.
    Mr. Hawley. Totally agree. We are--we have the base level 
of testing that everybody's familiar with in terms of the x-ray 
tests, and we do covert testing. We also do take the security 
officers and have them do exactly what you described, sometimes 
at other airports where they're not recognized.
    But we are rolling out a program in 2007 that is directly 
related to that, in terms of doing the IED component test kits. 
To have them deployed at the check points, where they will work 
with them all day and test, and peer test, with each other. It 
is the ability to find the detonator, the individual piece of 
an IED, that is the standard.
    And that's the principal thing that's changed since before 
9/11. Is that now it is, a very tough standard. But the 
training is far advanced, and I believe our workforce steps up 
to that. But we're--one of the reasons that we're deploying 
these kits in a widespread manner is to be able to build up the 
database. Because when you do individual covert testing, you 
know, in a system like ours, you're not statistically 
significant. So, if we can get out twelve or fifteen hundred of 
these and build up the test scores, then we really can come 
back here with statistically significant data that will be able 
to demonstrate progress, or non-progress.
    Senator Rockefeller. All right. I have five more questions 
which I'm going to submit to you in writing, but we've been 
joined by Senator Carper. And I want to welcome you, Senator 
Carper, to the Committee. You're a superb member, even though 
you haven't opened your mouth yet, because I know you very 
well, and you were born in West Virginia, which gets you a few 
extra points. And we welcome whatever questions you may have.

              STATEMENT OF HON. THOMAS R. CARPER, 
                   U.S. SENATOR FROM DELAWARE

    Senator Carper. Thank you, Mr. Chairman. I'm honored to be 
here. Maybe I shouldn't open my mouth, and then people will 
think I really know something.
    This falls under the rubric of ``all politics is local,'' 
but in my state, one of the issues I focus a fair amount on is 
affordable housing. I'm a huge proponent of home ownership. And 
one of the companies that's been especially supportive of that 
over the years is a company called Leon Wiener and Associates.
    Leon Wiener, who is the founder of the company, passed away 
a couple of years ago, and it's now run by a fellow named Kevin 
Kelley.
    Kevin's a name as close to that of somebody that's on a 
watch list from the IRA, and for some time, when he's gone to 
the airport to catch a flight to go to one place or the other, 
he ends up not getting to fly, or at least delayed.
    I don't know about you, but when I go to airports--and 
Senator Rockefeller, this may be for you too--I usually get 
there in a hurry, I don't have much time to go through the 
screening. I do, like everybody else, but it's a rush 
situation. And I'm trying to make my flights, and make my 
connecting flights, and I can't imagine what it's like to be 
who you are--who you say you are--actually be an upstanding 
citizen within your state, and to face these delays over and 
over again.
    He's not the only one. He's not the only one in my state, 
and I suspect you heard from others. I'm told Senator Lott may 
have talked about his wife this morning facing a similar 
situation.
    And as, on the one hand, we try to be careful and cautious 
and enhance security on our flights, we also want to do 
whatever we can to make sure that we're not inconveniencing--
needlessly inconveniencing--people. Like, whether it's Mrs. 
Lott, or whether it's Kevin Kelley, or a whole lot of other 
people.
    I suspect you already responded to this question, this 
issue, but for me--would you just restate what, what we're 
doing to get this resolved, and soon?
    Mr. Hawley. Sure. First off, I do understand that it is a 
pain for an awful lot of people, and that is something that I 
hear about a lot, and it's something that we work on a lot. And 
so, I guess I understand the question.
    The answer is, that in the next year we will get Secure 
Flight deployed, and that problem will then go away.
    Senator Carper. When you say next year--early next year? 
The middle of next year? The end of next year?
    Mr. Hawley. I would say by New Year's Eve is what I would 
sign up for, and then whatever we can do faster. It would be 
depending on the comments that we get. This is principally the 
notice of proposed rulemaking (NPRM), and the comment period, 
and what comments we get, and how long that takes.
    Senator Carper. I want to make sure I understand it. When 
you say by next--by New Year's Eve of this year?
    Mr. Hawley. Of 2008.
    Senator Carper. So that would be almost 2 years away.
    Mr. Hawley. That's, yes, so. Let me go back to the--so, 
that brings up the question: OK, that's a long time--what are 
we doing about it in the meantime?
    And the first thing we've done is scrub the list. And we've 
gone over every name on the No Fly List. And we'll have that 
review complete here in the next couple of months, and that 
will reduce the No Fly List to the bare minimum of people who 
really, really today represent the threat. And that's going to 
be on the order of magnitude of about a half. So that itself 
will reduce the problem.
    The second piece is redress, where we now have gotten the 
process from a paper, 60-day process, to an electronic 10-day 
process to get on the cleared list, where we circulate to the 
airlines and say, ``Hey, this is the guy who's not the 
terrorist, let him go through.''
    The problem that your friend is having--and a lot of people 
are having--is that there are different airline systems who are 
able to use the cleared list in--to different degrees of 
effectiveness. So, the problem is isolated to, ``Can I get my 
boarding pass at home, or print it off at the kiosk?'' Those 
are the two areas where you're impacted. So, if the airline 
can't clear you in their system, those are the two places it 
fits. And the trade-off for that is, we have a very good system 
of keeping people who are on the watch list off planes.
    Senator Carper. What do we need to do to help expedite this 
solution?
    Mr. Hawley. I think a lot of the responsibility, frankly, 
is on TSA to prove that the privacy protections are robust and 
real. And I think a lot of questions have been raised as to our 
trustworthiness on that. And that's where we spent a large part 
of the last year--re-baselining, rebuilding the program. So, 
we've now done it to our satisfaction, and now comes the 
process of convincing GAO and the public that it is as robust 
as we think it is.
    Senator Carper. Second question. In Northern Delaware we 
have an airport, it's about 30, 35 miles away from Philadelphia 
International. Philadelphia International is one of the busiest 
airports in the country now, and frankly one of the airports 
with the longest delays. They have huge problems with 
congestion, there are airplanes trying to get in and out of 
Philadelphia.
    With that in mind, at least one national carrier--
international carrier, Delta, has decided to operate flights 
out of New Castle County Airport, just south of Wilmington, 
Delaware to provide the direct flights to Atlanta. And the 
service is actually quite well-received, and our expectations 
is that they're probably going to build on that.
    But getting federalized screening at the airport has been--
as you may know--difficult. And I just want to ask, what was 
the reason for the initial decision not to federalize the 
airport in time for the start of passenger service to Atlanta? 
Any ideas on that?
    Mr. Hawley. Yes. It is a widespread issue for us. It does 
get to the resource base of saying, at what point are we 
deploying further TSA screeners around the country to smaller 
airports? And what we find is that when we do that, service is 
initiated--a lot of times service then decreases, or leaves, 
and then we've got our TSA people stuck there. And the really 
hard problem is when it's reduced, because you can't pull them 
out totally, and once you federalize, it's hard not to.
    So, we're looking--and I'm familiar with Wilmington--but as 
an overall system, one of the things we've talked to airlines 
and airports about, is using the privatization option for the 
smaller airports, where you can have an arrangement with your 
local sheriff, or other local people, where we can deputize to 
do the screening. And that way we don't have to put full-time 
TSA people, but you still get your federalized screening, and 
can fly into the sterile area, the big airports. So, I think 
that is a very promising way to deal with it that doesn't drain 
TSA resources, but keeps the security.
    Senator Carper. My time's expired, I'm going to submit one, 
at least one question for the record, just to follow up on 
private----
    Senator Rockefeller. Go ahead, Senator. Take your time.
    Senator Carper. OK, thank you.
    When it appeared that the New Castle County Airport would 
not receive TSA screeners, apparently they explored contracting 
with a private company. And I'm told that bids were tough to 
come by because of the small size of the service needed, as 
well as, I guess, liability issues that were raised. And so, 
I'll just go back at this a little different way and ask, how 
has the TSA addressed the problem that we faced in Delaware 
when looking to contract security? And what, if any, changes 
have been made?
    Mr. Hawley. Well, we just announced one in New York where 
it was a three-party deal, and that's what we're looking for. 
And if the bid is--``find me an agency to bid on it,'' that's 
going to be harder than, ``find me some off-duty police 
officers who are going to be around the airport anyway,'' and 
we can, you know--they can earn a little extra money and 
provide additional service.
    So, I think that the second--identifying individuals who 
are in the community anyway is a profitable way to go. So, Mo 
McGowan right here, runs that part of the world, so we'll go 
huddle after this.
    Senator Carper. Say the name of the person again?
    Mr. Hawley. Mo----
    Senator Carper. Mo----
    Mr. Hawley. McGowan, over there in the red tie.
    Senator Carper. Thank you, thanks so much. Thanks, Mr. 
Chairman.
    Senator Rockefeller. He probably has problems going through 
passenger screening, too.
    Senator Carper. With a name like Mo McGowan, do you think?
    Senator Rockefeller. Yes.
    Senator Carper. I hope not, because it's a theme. Hey, Mo. 
No, Mo.
    Senator Rockefeller. I guess the final words I'd say is 
that, there are a lot of things we have yet to discuss. And you 
will--I hope you'll answer my questions, and I hope we'll 
continue meeting.
    I think it needs to be said that--at least in this 
Senator's judgment--you're doing an extremely good job. And the 
relationship between leadership over at TSA, and what happens 
at TSA, is obviously enormous. In that 9/11 could be repeated 
in some form almost any day, again, there's an instinct on our 
part to push, to push, to push. And I would just say that as 
we're pushing, it would be my feeling that you're trying to do 
as much as you possibly can. But for heaven's sake, don't 
bypass anything.
    If it takes me missing my airplane or somebody having the 
wrong name and not being able to get on, then let that be as 
you work out the wrinkles in that system, because it has to be 
as flawless as it can be.
    Final question--are there any areas--I mean it is generally 
understood in the Congress that there's been so much attention 
on wars overseas, and not really enough attention on the war on 
terror overseas, or the war on terror and what it could do in 
this country--and that is where Homeland Security as a 
department comes in. I think Michael Chertoff is doing a very 
good job, however, I think there's universal agreement that 
Homeland Security is underfunded. And I think it's incumbent 
upon those who come before us to tell us if they think some 
part of their part of that program is being underfunded. 
Because the security of Americans is far more related to the 
work of Homeland Security than it is to what's going on in 
Iraq. At least that's my point of view.
    So, if you put yourself at the top of the heap, then you've 
got to be aggressive about asking for funding where you think 
you don't have enough. Senator Carper indicated that, ``Gee, 
that's 2 years away.'' Maybe it's really important that it be 1 
year away, and it could be if you had more funding. Or maybe 
it's not because you're simply working on technology and the 
rest of it. Could you be forthright with us on the matter of 
adequacy of funding, or not?
    Mr. Hawley. Yes, sir. And I believe all the pressure I get 
from Secretary Chertoff is along the lines you mentioned of--
it's security first, this is the mission and we've got to be 
direct--and to me saying, ``You've got to be direct in saying 
this is what it takes to do this.'' And then have the 
discussion up front that says, ``Do we want to do it or not?'' 
And if we're going to do it, we've got to fund it. So, clearly 
that is the philosophy of the Department.
    On Secure Flight, we are looking at exactly that question, 
what would it take to move it up significantly from what I've 
just described? And budget is not in that discussion yet. So, 
we're going to figure out what it is, and then we'll have the 
budget conversation.
    So, and particularly on the issue of TSOs, we're dialed 
into that as well. So, we will be candid on that--there are 
obviously budget requirements that we respect, and I know the 
Congress respects. So--but it's a policy issue, and we will 
certainly surface those issues.
    Senator Rockefeller. That's very important. And I thank you 
very much for your appearance.
    I wish to say, on behalf of Chairman Inouye, that our next 
hearing is at 10 a.m. on Thursday, January 18th, and it will be 
on surface transportation security. Thank you, Mr. Hawley.
    Mr. Hawley. Yes, sir. Thank you.
    [Whereupon, at 11:48 a.m., the Committee was adjourned.]


                            A P P E N D I X

             National Air Transportation Association (NATA)
                                   Alexandria, VA, January 17, 2007
Hon. Daniel K. Inouye,
Chairman,

Hon. Ted Stevens,
Vice Chairman,

Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Inouye and Vice Chairman Stevens:

    The National Air Transportation Association (NATA), the voice of 
aviation business, is the public policy group representing the 
interests of aviation businesses before Congress, Federal agencies and 
state governments. NATA's 2,000 member companies own, operate and 
service aircraft. These companies provide for the needs of the 
traveling public by offering services and products to aircraft 
operators and others such as fuel sales, aircraft maintenance, parts 
sales, storage, rental, airline servicing, flight training, Part 135 
on-demand air charter, fractional aircraft program management and 
scheduled commuter operations in smaller aircraft. NATA members are a 
vital link in the aviation industry providing services to the general 
public, airlines, general aviation and the military.
    On behalf of NATA and its 2,000 members, I am writing to express 
concerns with legislation that would have a significant negative 
economic impact on hundreds of aviation ground service providers across 
the country. H.R. 1, passed by the U.S. House of Representatives last 
week, includes a provision that would direct the Department of Homeland 
Security to issue a rule that would require the screening of all air 
cargo carried aboard passenger aircraft within 3 years. Such a 
requirement, without significant increases in Federal funds to 
accomplish this goal, will lead to unbearable increases in costs for 
companies who provide ground support to commercial air carriers.
    The language included in H.R. 1 constitutes an unfunded mandate, 
and represents a dramatic reversal in current DHS policy, which 
assesses security initiatives through a risk-based approach. Currently, 
technology does not exist that would allow all cargo carried aboard 
passenger aircraft to be screened in a manner that does not 
significantly disrupt the flow of commerce. Before directing airlines 
and ground service providers to comply with such a massive initiative, 
Congress must first invest in technologies that will streamline the 
cargo screening process. An across-the-board proposal to scan all cargo 
within such a small time-frame, however, directs vital resources away 
from critical DHS programs, forcing the Department to spend a 
disproportionate amount of time on one particular aspect of aviation 
security.
    I am pleased that the Senate is taking a different approach from 
the House to such important legislation, starting with today's hearing 
regarding the recommendations of the 9/11 Commission. The legislation 
considered in the House was passed with no committee input and no 
opportunity for amendment. It is imperative that such a vital piece of 
legislation go through the standard legislative process, so proposals 
can be properly vetted and examined, and other alternatives can be 
debated. Today's hearing regarding the recommendations of the 9/11 
Commission is a step in the right direction.
    As the Committee on Commerce, Science, and Transportation begins 
discussion today on improvements to aviation security, I ask that the 
Senate take a more reasonable, risk-based approach to improving air 
cargo security. Aviation ground service providers are eager to assist 
in developing reasonable, long-term solutions to improving all aspects 
of aviation security, including further measures to secure air cargo 
aboard passenger aircraft. The best long-term solution to screening air 
cargo should begin with Federal investment in technologies that will 
make cargo screening more precise and more efficient. Should Congress 
direct the Transportation Security Administration to increase the 
amount of air cargo screened, those increases should be directed based 
on risk rather than a ``one-size-fits-all'' solution, and they should 
be accompanied with appropriate Federal funds to allow airline service 
providers the opportunity to invest in additional infrastructure to 
meet the needs of the new requirements.
    Thank you for your attention to this important issue.
        Sincerely,
                                            James K. Coyne,
                                                         President.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                     Hon. Edmund S. ``Kip'' Hawley

    Question 1. The Government Accountability Office (GAO) has 
recommended that the TSA assess the feasibility, expected benefits and 
costs of replacing Explosive Trace Detection (ETD) machines with stand-
alone Explosive Detection System (EDS) machines for primary screening. 
Has the TSA completed such an assessment?
    Answer. In February 2006, the Transportation Security 
Administration (TSA) delivered to Congress a Strategic Planning 
Framework for the Electronic Baggage Screening Program (EBSP). This 
framework details TSA's long-term planning philosophy for the 
development and implementation of optimal baggage screening solutions 
at the Nation's top 250 airports, where over 99 percent checked baggage 
originates, and currently guides TSA's investment and deployment 
decisions. The plan does include replacement of ETD with EDS at many 
medium and small airports. However, the volume of checked baggage at 
the remaining airports would not support the capital investment that 
would be required for an EDS installation. The plan examines a variety 
of baggage screening configurations and matches those configurations to 
airport operational designs and needs.
    The plan also includes the following key elements:

  <bullet> Funding prioritization schedule.

  <bullet> Deployment strategy (includes a strategy to expedite the 
        deployment of in-line EDS systems, where an in-line solution is 
        appropriate to an airport).

  <bullet> EDS life-cycle management plan.

  <bullet> Stakeholder collaboration plan.

    Question 2. When does the TSA anticipate completely phasing out ETD 
machines at all but the smallest airports?
    Answer. In February 2006, the Transportation Security 
Administration (TSA) delivered to Congress a Strategic Planning 
Framework for the Electronic Baggage Screening Program (EBSP). This 
framework details TSA's long-term planning philosophy for the 
development and implementation of optimal baggage screening solutions 
at the Nation's top 250 airports, where over 99 percent checked baggage 
originates, and currently guides TSA's investment and deployment 
decisions.
    The plan does include replacement of ETD with EDS at many medium 
and small airports. However, the volume of checked baggage at the 
remaining airports would not support the capital investment that would 
be required for an Explosives Detection System (EDS) installation. 
Explosives Trace Detection (ETD) equipment would remain at these 
airports as the primary checked baggage screening solution. 
Additionally, ETDs would remain at airports with EDS solutions for 
secondary checked baggage screening. The plan estimates that by 2019 
the optimal screening systems will be installed at all airports.

    Question 3. What level of staff savings have been achieved since 
March 2005 from replacing stand-alone EDS machines with in-line EDS 
machines?
    Answer. The Transportation Security Administration (TSA) has 
identified six airports that converted to in-line baggage systems 
during this period: two Category X airports (Hartsfield-Jackson Atlanta 
International Airport and McCarran International Airport), three 
Category I airports (Austin-Bergstrom International Airport, Bob Hope 
Airport, and Metropolitan Oakland International), and one Category II 
airport (Richmond International Airport).
    The aggregated Full Time Equivalent (FTE) reduction from Staffing 
Allocation Model (SAM) 2006 to SAM 2007 is 318 FTE. Of this number, 60 
percent left the TSA workforce through attrition. The remaining 
positions, based on historical rates, should leave by the end of the 
Fiscal Year 2007.

    Question 4. How is the TSA selecting and prioritizing its R&D 
projects for aviation checkpoint security?
    Answer. The Transportation Security Administration (TSA) uses a 
risk-based approach to identify its Research & Development (R&D) 
requirements. TSA assesses its current capabilities and the 
effectiveness against identified risks, including an assessment of the 
latest intelligence information. The primary focus for R&D efforts 
related to checkpoint security technology has been to increase 
explosives detection capabilities. Working with the Department of 
Homeland Security (DHS) Science and Technology Directorate (S&T), TSA 
ensures its R&D priorities are incorporated into the overall DHS R&D 
program.

    Question 5. Do you have any specific evidence or statistics 
demonstrating that the investment in R&D for checkpoints has been 
effective and has addressed the highest priorities?
    Answer. The Transportation Security Administration (TSA) has 
identified the need for technologies and procedures that will assist in 
the identification of explosives. This is the highest priority for 
aviation checkpoints, and TSA has been working with the Department of 
Homeland Security, Science and Technology Directorate (DHS S&T) to 
address this priority. The development of technology solutions has been 
challenging, in that the systems must be able to effectively detect 
explosives and ensure that the flow of passengers is not delayed. TSA 
believes that previous investments in the area of R&D will support a 
significant increase in systems deployable in Fiscal Year (FY) 2007. 
For example, one of the solutions to be evaluated is technology to 
support the identification of those who might portray ``hostile 
intent'' as they approach the screening process. Use of closed circuit 
TV cameras, along with individuals trained in recognition of signs of 
``hostile intent,'' will allow TSA to direct those individuals to a 
more intense screening process.

    Question 6. Are these priorities being acted on by the Department 
of Homeland Security (DHS) Science and Technology Directorate (S&T) and 
the Transportation Security Lab?
    Answer. The Transportation Security Administration (TSA) has been 
working closely with the Department of Homeland Security, Science and 
Technology Directorate (S&T) to prepare several new technologies for 
operational testing and evaluation (OT&E). With the continued lab 
support from DHS S&T, TSA has recently initiated an OT&E pilot using 
whole body imaging systems and will soon be initiating OT&E pilots 
using cast and prosthetics scanners for people, as well as bottled 
liquid scanners, automated explosives detection systems and advanced x-
ray technologies for carry-on items in Fiscal Year (FY) 2007. Efforts 
undertaken by S&T to identify a method to detect the possible presence 
of ``hostile intent'' within the population approaching the screening 
process will afford TSA another potential solution to support a systems 
approach to security screening.

    Question 7. What is the status of the rapid-response task force 
convened by Admiral Jay Cohen, Under Secretary of the Science and 
Technology Directorate, to address the detection technology gap exposed 
by the foiled liquid explosives plot in London?
    Answer. Based on the Department of Homeland Security, Science and 
Technology Directorate's (S&T) ongoing efforts, the Transportation 
Security Administration (TSA) will begin conducting airport 
demonstrations using bottled liquid scanners in the coming months. TSA 
and S&T will share performance data gathered during these 
demonstrations to determine the extent to which a technology solution 
is ready for wide-scale purchase and deployment. While these 
demonstrations are underway TSA continues to implement several security 
procedures that address the vulnerability identified by the incident in 
London including the limitation of the amounts of liquids that 
passengers are permitted to carry on-board an aircraft.

    Question 8. What is the status of the DHS testing efforts--through 
the Transportation Security Lab--to develop a liquid explosive 
detection technology, and what steps has the TSA taken to address this 
vulnerability?
    Answer. Based on the Department of Homeland Security, Science and 
Technology Directorate's (S&T) ongoing efforts, TSA will begin 
conducting airport demonstrations using bottled liquid scanners in the 
coming months. TSA and S&T will share performance data gathered during 
these demonstrations to determine the extent to which a technology 
solution is ready for wide-scale purchase and deployment.
    In the interim, TSA has implemented several security procedures 
that address the vulnerability associated with the identification of 
liquid explosives. Beginning August 10, 2006, TSA implemented 
restrictions on the carriage of liquids, gels, and aerosols into the 
sterile area and onboard aircraft. Except for exempt items (baby 
formula/milk/breast milk/food, medications, and liquids/gels required 
for medical purposes), all liquids, gels, and aerosols must be placed 
in travel size containers (3.4 oz/100ml) that fit comfortably into a 
single, sealed, quart-size plastic bag. All liquids, gels, and aerosols 
(including exempt items) are x-rayed and physically examined by 
Transportation Security Officers (TSOs). Additionally, randomly chosen 
samples of passengers' quart-size plastic bags are subjected to 
screening using explosives trace detectors (ETD) at each checkpoint. 
New training requirements have been established to cover the additional 
screening procedures associated with this threat.
    TSA uses a layered approach to security at checkpoints, and 
technology is just one component in the strategy. TSA has modified 
existing technologies and developed procedures at the checkpoint to 
successfully detect explosives. Key to the successful detection of 
explosives is the TSOs. TSOs have received training in explosive 
detection and have demonstrated proficiency. On the personnel front, 
TSA has invested resources in developing, implementing, and training 
TSOs in order to augment the current technology available. On the 
technology side, we have made modifications to the technology. 
Therefore, existing technology solutions are being used more 
effectively and efficiently to meet TSA security goals through better 
trained TSOs and equipment modifications. The prohibited items list was 
modified to reduce the number of items TSOs are looking for to allow 
them to concentrate technology more on explosives. TSOs are also 
trained in behavioral recognition and bomb appraisal. Canines provide a 
visible, unpredictable deterrence in and around the checkpoint and also 
have detection capability. All things considered, TSA has successfully 
deployed checkpoint technologies to address vulnerabilities in a 
layered security system.

    Question 9. Could you update us on the status of any plans the 
agency has to lease equipment, rather than buy it, and the impact that 
leasing may have on the cost of acquiring and maintaining screening 
technologies over time?
    Answer. The Transportation Security Administration (TSA) worked in 
collaboration with aviation industry stakeholders to develop a cost-
sharing formula that reflects the benefits each party derives from the 
installation of the optimal baggage screening solution, including 
national security benefits and labor and other cost savings. The 
Baggage Screening Investment Study (BSIS) was sent to Congress in 
February 2007, which TSA is now evaluating. In addition to the 
recommendations in the BSIS, TSA plans to continue to engage industry 
and the Administration to examine various leasing and service contract 
options to potentially reduce the Federal burden of purchasing and 
maintaining explosives detection systems (EDS).

    Question 10. The GAO has reported in the past that the TSA's 
coordination with other Federal agencies and outreach to transportation 
industry association stakeholders has been limited. What actions has 
the TSA taken to improve coordination with the aviation community?
    Answer. In an effort to centralize and improve the Transportation 
Security Administration's (TSA) outreach efforts to the transportation 
industry and create a focal point for inter-agency coordination, the 
Office of Transportation Sector Network Management (TSNM) was 
established in late 2005. With ten distinct transportation modes 
identified within TSNM, three were specific to the aviation sector: 
Airlines, Airports, and General Aviation. In addition, TSNM-
International works closely with the aviation community. General 
Manager (GM) positions were created to lead each office to improve 
communication and present a more consistent and focused message to both 
industry and other government agencies. They are charged with 
conducting outreach and participating in a variety of industry 
sponsored events.
    TSNM-Airports maintains a high profile with its stakeholders, 
including those within the Federal Government, at other levels of 
government, and among its industry stakeholders. In particular, with a 
population of over 450 regulated airports of varying sizes and 
complexities under its purview, TSNM-Airports has established a robust 
and effective partnership with several key commercial airport industry 
associations, including the Airports Council International-North 
America and the American Association of Airport Executives. Through 
daily contacts, TSNM-Airports communicates timely information 
effectively among the full range of industry stakeholders. Aside from 
the ongoing daily dialog, TSNM-Airports conducts a monthly conference 
call from TSA Headquarters offices in Arlington, Virginia, attended by 
representatives from both associations. These calls typically include 
the participation of 90 to 100 Airport Security Coordinators (ASC) from 
all major airports around the Nation. TSNM-Airports uses this process 
to regularly inform the associations and the airport community of 
pending regulatory changes through the issuance of security directives 
and to provide updates on TSA programs being implemented at airports. 
Additionally, TSNM-Airports coordinates and manages meetings between 
Airport Directors and senior TSA leadership on issues ranging from 
financial reimbursements, technology requests, TSA staffing, and future 
terminal design and construction work.
    As the TSA spokesperson to the airport community, TSNM-Airports 
participates in frequent industry-sponsored conferences, meetings and 
seminars to keep the community apprised of operational issues, policy 
guidance, and future plans. These opportunities are an excellent forum 
to provide a large audience with the TSA's strategic vision and to meet 
individually with specific airport representatives. Some of the issues 
brought up by the airports include leased space and potential pilot 
programs. TSNM-Airports works with other offices within TSA on these 
issues and provides timely and accurate feedback to the airports. TSNM-
Airports meets regularly with the Airport Associations Board of 
Directors and Senior Security Directors. These meetings allow Directors 
to broach specific, technical issues and to brainstorm ideas. They also 
provide a forum for them to address issues regarding current policies.
    On several occasions, senior Airport Directors and association 
managers have been invited to participate in classified threat 
briefings. These briefings outline the current threat situation and 
threat streams and provide a discussion of TSA's plan to counter the 
threat. Attendees must possess a Secret security clearance, which TSNM-
Airports helps them acquire.
    TSNM-Airlines works daily with stakeholders to develop and maintain 
close and effective working relationships with air carrier security 
directors and the major airline associations including the Air 
Transport Association (ATA), which is the primary trade and service 
organization of the U.S. airline industry. ATA represents over ninety 
percent of U.S. airline passenger and cargo traffic. TSNM-Airlines also 
has extensive knowledge and close relationships with the other four 
major airline associations in Washington, D.C., including the Air 
Carrier Association of America, which represents low-fare carriers, the 
Regional Airline Association, which represents regional air carriers, 
the National Air Carrier Association of America, which primarily 
represents charter airlines, and, on occasion, the International Air 
Transport Association, which represents international air carriers. In 
addition, they have developed effective working relationships with the 
Air Line Pilots Association, the Coalition of Airline Pilots, the 
Association of Flight Attendants, and several other aviation union 
groups. The U.S. Chamber of Commerce and the National Business 
Travelers Association are business related stakeholder associations 
with which TSNM is also in close contact to gather industry input and 
share information with these groups on TSA issues and programs.
    TSNM-Airlines consistently partners with other agencies within the 
Department of Homeland Security (DHS), such as Customs and Border 
Protection (CBP), as well as the Department of Transportation (DOT) and 
Federal Aviation Administration (FAA), and works closely with the White 
House Homeland Security Council on projects such as Homeland Security 
Presidential Directive (HSPD) 16. To complete planning and 
implementation of HSPD-16, TSNM-Airlines has worked closely with DHS 
Offices of Policy and Infrastructure Protection, the United States 
Secret Service, as well as the Department of Commerce, Department of 
Defense, Department of Justice/Federal Bureau of Investigation, and the 
Department of State.
    Pursuant to HSPD-7 and the National Infrastructure Protection Plan, 
the Aviation Government Coordinating Council (GCC) was established as 
an interagency body to include Federal and State officials with 
responsibilities that relate to the aviation sector. DHS has designated 
TSNM-Airlines as the Chair of the Aviation GCC, and in this chair, 
TSNM-Airlines coordinates with other departments and agencies for the 
aviation transportation sector. The Aviation GCC has met on several 
occasions. HSPD-7 called for the establishment of the Aviation Sector 
Coordinating Council (SCC) to be led by the owners and operators of the 
aviation industry. It is self-organized and has elected its own 
chairman. The Aviation SCC is working to institutionalize the private 
sector's coordination of policy development, aviation sector-wide 
strategy and planning, and program promulgation and implementation. The 
Aviation SCC will also conduct sector-wide industry coordination. The 
Aviation SCC has also met on its own and also met with the Aviation GCC 
for an initial introductory meeting.
    The objective of the Aviation GCC is to work in cooperation with, 
and as the counterpart to, the private industry Aviation SCC to 
coordinate aviation security strategies and activities, to establish 
policies, guidelines, and standards, and to develop program metrics and 
performance criteria for the aviation mode. The Aviation GCC fosters 
communication across government and between the government and private 
industry in support of enhancement of the Nation's homeland security 
posture.
    TSNM-General Aviation (GA) serves as a ``one stop shop'' for all 
matters relating to GA security. Due to the breadth and diversity of GA 
operations, TSNM-GA works in coordination with the industry/GA 
stakeholder community to develop and implement security programs and 
policies that are reasonable, feasible, and effective. TSNM-GA, on a 
regular basis, maintains contact with the 17 GA trade associations that 
represent the entire spectrum of GA activities, including the Aircraft 
Owners and Pilots Association, General Aviation Manufacturers 
Association, National Business Aviation Association, National Air 
Transportation Association, and National Association of State Aviation 
Officials via routine one-on-one meetings and periodic GA Coalition 
meetings with DHS/TSA leadership. Additionally, TSA interacts with the 
GA community through participation at trade association conferences, 
industry events, telephone discussions/teleconferences, electronic 
dissemination of security advisories, and compliance inspections. TSNM-
GA also continuously coordinates with State, local, and other Federal 
agencies, such as CBP and FAA, on various security programmatic and 
policy issues.
    TSNM-International's outreach to the transportation industry 
association stakeholders is both global and regionally oriented. On a 
global scale, TSA meets regularly with the International Air Transport 
Association (IATA) to discuss, most notably, harmonization of aviation 
security measures. Outreach to the aviation industry on a regional 
level has been established through the Association of European Airlines 
(AEA) in Europe; Association of Asia Pacific Airlines (AAPA) and 
Association of South Pacific Airlines (ASPA) in Asia-Pacific; 
Association of Latin American Airlines (ALTA) in the Caribbean and 
South America. In February 2007, TSNM-International held its first 
security conference in Miami, Florida, in conjunction with ALTA. The 
success of this conference has prompted AEA, AAPA/ASPA and IATA to 
request conferences in their regions, which TSA is already planning.

    Question 11. How and when do you plan to certify that Secure Flight 
has met the 10 mandates Congress required?
    Answer. The Transportation Security Administration (TSA) is 
defining and implementing a strategy for Department of Homeland 
Security (DHS) certification through close collaboration with the DHS 
Screening Coordination Office (SCO). Based on the current schedule, DHS 
certification of the 10 areas of Congressional direction given to the 
Government Accountability Office (GAO) will be complete in the third 
quarter of FY 2009, following operational testing with the first groups 
of aircraft operators. TSA is working closely with GAO to facilitate 
their review of the program's development. Secure Flight is one of the 
Department's top priorities, and TSA is continually investigating ways 
to accelerate the program schedule to allow for an expedited 
implementation of the system, as appropriate and within established 
life-cycle cost estimates.

    Question 12. At what point in the development of Secure Flight will 
certification begin?
    Answer. The certification process is under way. Progress is being 
made in each of the ten areas of Congressional direction, with three of 
the items already completed.

    Question 13. Will all mandated areas be addressed simultaneously or 
do you plan to move forward incrementally?
    Answer. The Transportation Security Administration plans to address 
each of the ten areas of Congressional direction within a time-frame 
compatible with the schedule for critical program milestones. Progress 
is being made in each of the ten areas of Congressional direction, with 
three of the items already completed.

    Question 14. What events need to be accomplished before you can 
certify Secure Flight?
    Answer. Final certification of the ten areas of Congressional 
direction for Secure Flight will occur after parallel operations with 
aircraft operators are under way.
    The table below identifies completion milestones and Secure 
Flight's current program status for each of the ten areas of 
Congressional direction.

------------------------------------------------------------------------
                                       Milestone for      Secure Flight
   Number           Condition            Completion          Status
------------------------------------------------------------------------
1             System of due process  During             Nearly complete
               (Redress)              operational
                                      testing
------------------------------------------------------------------------
2             System error rate      During parallel    In progress
               will not produce a     operations
               large number of
               false positives
------------------------------------------------------------------------
3             TSA has stress tested  End of system      In progress
               the accuracy of the    testing
               system
------------------------------------------------------------------------
4             DHS has established    Initiation of      Complete
               an internal            Investment
               oversight board        Review Board
                                      (IRB) Reviews
------------------------------------------------------------------------
5             TSA has sufficient     Authority to       In progress
               operational            Operate granted
               safeguards to reduce
               abuse opportunities
------------------------------------------------------------------------
6             Substantial security   Authority to       In progress
               measures are in        Operate granted
               place to prevent
               hacking
------------------------------------------------------------------------
7             TSA has effective      Authority to       In progress
               oversight of the use   Operate granted
               and operation of the
               system
------------------------------------------------------------------------
8             There are no specific  Privacy            In progress
               privacy concerns       documentation
               with the               established
               architecture of the
               system
------------------------------------------------------------------------
9             Accommodate states     TSA Office of      Complete
               with unique            Intelligence
               transportation needs   (OI) assessment
                                      of CAPPS changes
                                      impact
------------------------------------------------------------------------
10            Appropriate life-      End of program     Complete
               cycle cost estimates   planning
               and programs exist
------------------------------------------------------------------------

    Question 15. To what extent is the TSA cooperating with the GAO's 
legislatively mandated review of Secure Flight, to include providing 
requested documents and interviews, and keeping them abreast of re-
baselining/reassessment efforts?
    Answer. The Transportation Security Administration (TSA) has 
created a document library for GAO to review Secure Flight program 
documentation. TSA is firmly committed to working with the General 
Accountability Office (GAO), and has conducted a number of meetings to 
provide program status as well as to discuss specific topics of 
interest to GAO. During 2006, TSA was working to re-baseline the Secure 
Flight program. Now that the re-baselining work has been completed, TSA 
is ready to participate with GAO in their review of the program.

    Question 16. Have you provided the GAO requested information needed 
to conduct their review, if not, why not?
    Answer. The Transportation Security Administration (TSA) is firmly 
committed to working with the General Accountability Office (GAO) and 
is working to provide GAO with the information it requires to review 
the Secure Flight program throughout its system development life cycle. 
TSA has created a document library for GAO to review Secure Flight 
program documentation. It was TSA's initial intent to provide GAO with 
program documents which had been finalized so as to not encumber GAO. 
TSA has decided to modify this approach and engage GAO prior to the 
finalization of documentation. TSA will continue to provide GAO with 
the information needed to support its efforts.

    Question 17. What other layers of security are in place to prevent 
known or suspected terrorists from boarding domestic flights when they 
go undetected by airlines' name-match screening processes?
    Answer. Currently, air carriers are required by the Aircraft 
Operator Standard Security Program (AOSSP) to conduct name matches to 
the Transportation Security Administration's (TSA) No Fly and Selectee 
lists. Along with the name-matching, a passenger may be selected for 
additional screening based on certain nonidentity factors reflected in 
reservation information. Once a passenger receives a boarding document 
from an air carrier, however, no further name-matching security 
measures exist to identify and prevent a specific traveler from 
boarding an aircraft. All passengers must go through the physical 
screening process at the security checkpoint. New measures such as the 
Screening Passengers by Observational Techniques (SPOT) have also been 
implemented to identify travelers with nefarious intent.

    Question 18. How can the TSA assure the Committee that all airlines 
are conducting name-match screening against the terrorist watch list 
with the same level of scrutiny and care?
    Answer. Most airlines have incorporated an electronic software 
program to satisfy the requirements of the regulation to conduct name-
based checks against Transportation Security Administration (TSA) watch 
lists. These systems are integrated into the air carrier's reservation 
system so that the check is done as a part of completing the 
reservation. This helps to eliminate the possibility of human error.
    Compliance with this regulatory requirement is part of the 
inspections TSA Aviation Security Inspectors (ASIs) conduct in the 
field. These inspections are listed as critical in the TSA Annual 
Inspection Plan, which calls for a frequent review of these measures to 
ensure continued compliance.
    TSA headquarters-based Principal Security Inspectors (PSIs), who 
are the point of contact for the air carriers' corporate security 
offices, annually review the procedures used by the air carriers to 
conduct these checks. One way to verify the process is to have the air 
carrier create a reservation with the name of an individual on a 
current watch list to ensure that the process works.
    TSA conducted Special Emphasis Assessments on compliance with the 
No Fly List in June/July 2005 and September 2005. Both sets of tests 
revealed a 94 percent compliance rate.
    There is no incentive for an air carrier not to comply with this 
process. It is already imbedded into their reservation system. If the 
automated systems are down and a carrier must process a passenger 
manually, the expense of having to divert an aircraft mid-flight 
because the carrier fails to run a passenger against the list is a 
significant deterrent to non-compliance.

    Question 19. Over the past year, what progress has the TSA made in 
conducting assessments of the threats and vulnerabilities facing 
critical transportation assets?
    Answer. The Transportation Security Administration (TSA) has been 
working continuously to update and expand its assessments of threats 
and vulnerabilities in the transportation sector. TSA has been making 
use of these assessments in conjunction with our security partners in 
government and industry to mitigate, by ``operationalizing'' 
intelligence and addressing vulnerabilities.
Headquarters Analysis
    TSA's layered approach to security seeks to identify and deter 
threats well before they reach the Nation's airports, railways, 
highways, mass transit, ports and pipelines. Transportation-specific 
intelligence is critical to TSA's overall risk-based security strategy, 
and its products provide a threat framework to prioritize security 
resources and operationalize intelligence. TSA has two operational 
programs with field units, the Office of Security Operations, which is 
responsible for both aviation Transportation Security Officers (TSO) 
screening and surface inspector operations, and the Office of Law 
Enforcement, which is responsible for the Federal Air Marshal Service 
(FAM). These elements incorporate intelligence into their operations 
and plans on a daily basis, acting or deploying on the basis of the 
latest information.
    TSA also coordinates closely and shares information with other 
Department of Homeland Security (DHS) components, the intelligence and 
law enforcement communities, other government departments and agencies 
such as the Department of Transportation (DOT), the Federal Aviation 
Administration (FAA), and the transportation industry. These security 
partners both provide intelligence and, especially in industry, are 
often well-positioned to operationalize transportation-specific 
intelligence by adjusting their business or security operations.
    TSA's Office of Intelligence has produced classified and 
unclassified annual threat assessments for each transportation mode and 
the cargo/supply chain sector since 2004. These reports are 
disseminated throughout TSA, DHS, and private industry. Other Office of 
Intelligence products include:

  <bullet> Transportation Intelligence Gazette
  <bullet> Special Threat Assessments
  <bullet> Weekly Field Intelligence Report
  <bullet> Suspicious Incidents Report
  <bullet> Intelligence Notes
  <bullet> Transportation Situational Awareness Notes

    TSA is also conducting specific analyses related to General 
Aviation and underwater mass transit tunnels. The General Aviation (GA) 
Risk Assessment/Throw Weight Study will analyze the damage potential 
and risk associated with GA aircraft, as well as the threat environment 
within the National Airspace System. An Underwater Tunnel Working Group 
was established in October 2006 consisting of members from various DHS 
and Department of Transportation (DOT) entities. This interagency team 
has taken significant steps to identify vulnerabilities of underwater 
tunnels and has put into place aggressive mitigation strategies to 
protect high-risk and high-consequence tunnel infrastructure in both 
the short and long term.
Field Assessments
    At the field level, TSA conducts various assessments which are 
either explicitly vulnerability assessments, or at least provide 
vulnerability-related information. In all cases they further TSA's 
risk-based security strategy and are described below.
Corporate Security Reviews
    A Corporate Security Review (CSR) is an assessment tool that 
evaluates corporate level security policies, practices, and procedures. 
Specific CSR evaluation criteria have been established for the 
pipeline, rail, and highway modes. The CSR criteria identify a desired 
baseline of security for a company; and the accumulation of individual 
assessments establish an actual baseline in a given industry or mode, 
as well as potentially identifying best practices and common concerns.
    In the highway mode, TSA entered into agreements with 37 state 
departments of transportation or bridge administrations to conduct CSRs 
of their facilities and critical infrastructure. In addition, TSA 
conducts CSRs of motor coach, school bus, and trucking companies. By 
the end of FY 2006, a total of 71 CSRs were conducted in the highway 
mode. Additionally, 950 CSRs were conducted by the Missouri Commercial 
Motor Vehicle Inspectors under a pilot project that TSA is currently 
evaluating.
    In the pipeline mode, a total of 54 CSRs have been conducted, 
including seven reviews in FY 2006 with companies that represent 
approximately 60 percent of the product transported through the 
Nation's pipelines. In addition, TSA has joined with Natural Resources 
Canada to conduct four security assessments for critical cross-border 
energy pipeline systems.
    In the rail mode, TSA has developed a CSR program and will be 
conducting assessments in Spring 2007.
TIH Rail Assessments
    TSA conducts vulnerability assessments of High Threat Urban Area 
(HTUA) rail corridors where toxic inhalation hazard (TIH) shipments are 
transported. Over the last year, detailed region-wide rail corridor 
assessments were completed in Houston, Buffalo, and northern New 
Jersey, and a fourth assessment is in the early stages of completion 
for the Los Angeles area. The HTUA corridor assessments provide site-
specific mitigation strategies and lessons learned as well as tactics 
that can be modified for use at the corporate or national level. HTUA 
corridor assessments supported the development of the Recommended 
Security Action Items (SAI) issued by DHS and DOT on June 23, 2006. 
These performance-based SAIs were developed to foster an enhanced 
security posture in the freight rail mode in general and specifically 
targeted the transport of TIH materials. These practices have been 
agreed to in binding commitments by the Nation's railways, and form the 
basis for pending regulation.
Joint Vulnerability Assessments (JVA)
    During FY 2006, the Office of Security Assessments completed 15 
Joint Vulnerability Assessments (JVAs). The JVA is a physical security 
survey conducted jointly with the Federal Bureau of Investigation that 
goes above and beyond regulatory requirements and covers all aspects of 
the airport operation that includes, but is not limited to:

  <bullet> Critical Infrastructure (power, water, HVAC, communications)
  <bullet> Fuel
  <bullet> Cargo
  <bullet> Catering
  <bullet> Terminal (Public & Sterile)
  <bullet> Perimeter
  <bullet> Access control
  <bullet> Ramp
  <bullet> Baggage
  <bullet> Fixed Base Operators (FBO)

Man-Portable Air Defense System (MANPADS) Vulnerability Assessments 
        (MVA)
    During FY 2006, MVAs were conducted at 84 domestic airports. TSA 
plans to conduct MVAs at all Category X and Category I airports 
annually, as per guidance outlined in the National Security 
Presidential Security 47/Homeland Security Presidential Directive 16 
(NSPD-47/HSPD-16).
Air Cargo Vulnerability Assessments
    In September 2006, TSA began developing a methodology and tool to 
analyze vulnerabilities associated with U.S. commercial air cargo 
supply chain operations. In December 2006, TSA began a pilot program to 
test the vulnerability assessment methodology, tool, and protocols in 
supply chains at three U.S. airports. The pilot program engages 
volunteer companies representing different nodes of the air cargo 
supply chain. During the pilot, vulnerability assessment information is 
confidential, and no enforcement actions occur as a result of the 
pilot. When the pilot is completed in March 2007, TSA will assess the 
feasibility of requiring vulnerability assessments in addition to its 
regulatory inspection requirements.

Surface Transportation Security Inspectors (STSI)
BASE Reviews
    Within the last year, the STSI program has conducted 26 Baseline 
Assessments for Security Enhancement (BASE reviews) as part of a 
program to conduct security reviews on the 50 largest transit systems 
nationwide. The BASE process reviews security procedures put in place 
by a transit (rail and bus) system to assist in evaluating the 
performance of its security system. BASE is not a compliance 
inspection, but rather a collaborative effort between the stakeholder 
and TSA. No enforcement actions occur as a result of BASE. To conduct 
this joint review, STSIs meet with security representatives of the 
transit agency to review the agency's pertinent documents.

Security Action Items (SAI)--Non-regulatory inspections
    To gain an understanding of the degree of implementation across the 
Nation, railroad carriers of TIH materials, DHS and DOT agreed to 
conduct SAI Implementation Surveys (SAIIS) of freight rail operations. 
These surveys are conducted by STSIs. The surveys are not compliance 
inspections, but rather assessments to determine the depth and degree 
of employee security awareness and security action item implementation. 
The results of the SAI Surveys will be reviewed and the data used to 
guide future policy decisions regarding the security of hazardous 
material rail shipments. Since October 2006, STSIs conducted 165 field 
site visits of freight railroad yards and facilities and interviewed 
2,600 front-line railroad workers.

Security Analysis and Action Programs (SAAP)--Risk Assessments
    STSIs conduct Security Analysis and recommend an Action Program. 
SAAPs are full risk assessments of transit and rail systems. They are 
not compliance inspections. An SAAP assessment rigorously analyzes the 
likelihood and consequence of the threat stream matrix for the rail 
environment and analyzes the effectiveness of countermeasures to manage 
risk effectively. SAAPs leverage the DHS Vulnerability Identification 
Self Assessment Tool (VISAT).
    The STSI program has completed full SAAP assessments on the 
following rail systems:

  <bullet> Virginia Railway Express
  <bullet> Alaska Railroad
  <bullet> Tri-Met (Portland, Oregon)

Regulatory Compliance Inspections
    In addition to these assessments, regulatory compliance inspections 
are also conducted by TSA officials. These compliance inspections are 
similar to vulnerability assessments but evaluate the security of a 
system against regulatory standards as opposed to threat scenarios. In 
FY 2006, TSA conducted 94,145 compliance inspections of airports, 
aircraft operators, indirect air carriers, and other regulated 
entities. For FY 2007 TSA has developed and implemented a risk-based 
national inspection plan. As part of the risk-based methodology for 
inspections, TSA Aviation Security Inspectors conduct critical 
inspections and testing focused on the nature and credibility of the 
security threat, the vulnerabilities associated with the threat, and 
the magnitude of potential consequences. The critical inspections are 
focused on airport operators, aircraft operators, and cargo. To date in 
FY 2007, TSA has conducted 27,557 inspections, including 6,038 critical 
inspections focused on airports, aircraft operators, and cargo. Testing 
is also conducted to ensure compliance with access control, perimeter 
security, passenger checkpoint identification verification, and air 
cargo security requirements.

    Question 20. How will this information be used to select and 
prioritize investments, as well as to assess the effectiveness of these 
investments?
    Answer. The results of these assessments are an important part of 
the Department of Homeland Security's (DHS) approach to risk management 
and help drive the Transportation Security Administration's (TSA) 
resource priorities, decisions and programs.
    For example, DHS' Transit Security Grant Program will use the 
assessment data to encourage and evaluate project proposals from the 
applicants that address the most important risks to the transportation 
sector. Follow-up visits to the grant awardees will reveal the degree 
to which identified security gaps have been closed. These follow-up 
visits will help determine the effectiveness of the grant awards, allow 
TSA to update its headquarters analyses, such as the Top 100 List, and 
help better understand how its has affected overall risk levels within 
the sector.
    TSA continually takes this assessment data into account especially 
during its annual budgeting process. Program managers set annual and 
out-year program priorities based on the outputs from the various 
assessments, and these are re-evaluated regularly based on the latest 
threat and assessment information. Further, the Risk Management 
Analysis Tool (RMAT) will be used in the future to specifically 
quantify the cost effectiveness of security investments in the U.S. 
commercial aviation system.
    The assessment data is also used for development of new security 
strategies, establishment of new Security Action Items, and deployment 
of operational TSA resources. For example, TSA's Large Aircraft 
Standard Security Program (LASSP) will leverage information from the 
General Aviation (GA) risk assessment, as well as review existing 
standard security programs, to modify its security strategies and 
implement an all encompassing security program for aircraft, regardless 
of the type of operation, in excess of a scientifically-validated 
threshold weight. This program will leverage elements from existing 
security programs, while including additional security enhancements.

Security Action Items
    Toxic Inhalation Hazard (TIH) Rail assessments supported the 
development of the Recommended Security Action Items (SAI) issued by 
DHS and the Department of Transportation (DOT) on June 23, 2006. These 
performance-based SAIs were developed to foster an enhanced security 
posture in the freight rail mode in general, and in transporting TIH 
materials in particular.

Operational Deployments
    TSA uses real-time threat information to guide its deployment of 
resources, including the National Deployment Office, canine teams, and 
Visible Intermodal Protection and Response (VIPR) Teams. In response to 
indicators and warnings of high threat to transportation, TSA will 
surge these resources, as appropriate, to reduce the risk of attack.

    Question 21. In developing plans for future years' budgets and 
funding, what mechanisms will the TSA use to identify areas where 
existing reserves--particularly from programs that are not performing--
can be reallocated to support new and emerging priorities?
    Answer. Transportation Security Administration (TSA) leadership 
frequently reviews and re-evaluates the allocations of funding provided 
to TSA programs, projects, and activities. Additionally, reviews are 
conducted as part of the budget process, and as part of the Department 
of Homeland Security (DHS) mid-year review. Programs are compared 
against their expenditure plans and if excess funds are identified, 
they are either offered up as base reallocations in the annual budget 
or reallocated within the budget year through the reprogramming 
provisions established by the committees, or both. In addition, 
programs are routinely subject to scrutiny through such mechanisms as 
DHS and component investment review boards and the Program Assessment 
Rating Tool (PART) conducted under the President's Management Agenda.

    Question 22. Canada has recently instituted what it calls the 
Restricted Area Identity Card, or RAIC, to enhance security at all 29 
of the principal air carrier airports in Canada. At the primary access 
doors to restricted areas of major Canadian airports, 120,000 
cardholders will have either their fingerprint or iris scanned by a 
biometric reader. What is preventing the agency from making the kind of 
progress that Canada has made in this regard? Does TSA intend to make 
TWIC a part of the aviation security environment, and if so, when?
    Answer. The Transportation Worker Identification Credential (TWIC) 
has focused its initial implementation efforts on Maritime 
Transportation Security Act (MTSA) regulated facilities and vessels. 
TWIC will provide a common, tamper resistant credential, issued after 
the successful completion of a security threat assessment that can be 
tied to an individual by a reference biometric. This type of common 
secure credential does not currently exist in the maritime environment 
whereas airports and airlines have already done a great deal of work in 
this area. DHS is presently reviewing all of its credentialing programs 
to determine not only where redundancy exists but also where existing 
resources may be more efficiently leveraged.

    Question 23. At least one major air carrier has taken steps to add 
secondary barriers to their aircraft, to supplement the reinforced 
flight deck door. Security advocates claim that these barriers are 
needed to prevent against a terrorist or other type of criminal from 
pushing their way into the cockpit when the flight deck door is opened. 
Has TSA taken a position on installation of secondary barriers? Would 
TSA support legislation requiring their installation?
    Answer. The Transportation Security Administration (TSA), along 
with the Federal Aviation Administration (FAA), created an acceptable 
standard for reinforced flight deck doors in 2003. Current aircraft 
design still requires the flight deck door to open during flight for 
pilot ingress and egress. While TSA acknowledges opening the flight 
deck door while in flight is a vulnerability, each air carrier has 
measures in place to mitigate the vulnerability.
    The FAA-approved secondary barrier can only be used on certain 
types of aircraft. Not all commercial aircraft can accommodate this 
barrier without extensive reconfiguration. TSA believes the secondary 
barriers are useful, but more options need to be provided before TSA 
can take any position on future legislation.

    Question 24. Regarding air cargo, Security Identification Display 
Areas (SIDA) procedures, which would protect against such unauthorized 
access, are not required at all airports served by all-cargo aircraft. 
Does TSA believe that security would be enhanced by including all-cargo 
aircraft within the SIDA? If so, has the agency determined when it will 
act to address this deficiency? Does the agency plan to require 
fortified flight deck doors on all freighter aircraft? Does TSA 
anticipate applying the new Air Cargo Risk-Based Targeting (ACROBAT) 
Program to all-cargo aircraft operations?
    Answer. The Air Cargo Security Requirements Final Rule (71 FR 
30478) published on May 26, 2006, requires airports that currently 
maintain a Security Identification Display Area (SIDA) to expand the 
SIDA to air cargo operating areas. At airports where SIDA is non-
existent but all-cargo operations occur, the Transportation Security 
Administration (TSA) requires aircraft operators to incorporate other 
security measures into their programs. For instance, TSA requires 
Security Threat Assessments (STA) for all persons who have unescorted 
access to cargo. Section 1544.228 of the Final Rule requires that all-
cargo aircraft operators comply by March 15, 2007, for direct employees 
and by June 15, 2007, for agents. These industry deadlines were 
recently extended via notice in the Federal Register to May 15, 2007, 
for direct employees, and July 15, 2007, for agents.
    TSA continues to support a layered security approach to detect, 
deter, and prevent a criminal or terrorist act against an all-cargo 
aircraft operator. Since 9/11, all-cargo aircraft operators have 
restricted persons accompanying flights as passengers. In addition, 
many all-cargo aircraft operators have installed fortified flight deck 
doors as a security best practice.
    Additionally, TSA has implemented a Federal Flight Deck Officer 
(FFDO) program for all-cargo aircraft operators. The program provides 
training to pilots, program management, resources, and equipment to 
protect the aircraft.
    TSA is currently concentrating its efforts on developing an air 
cargo risk-based targeting system to assess the risk of cargo destined 
for movement on all aircraft operating within the United States. TSA is 
conducting a pre-operational test of this system and have included an 
all-cargo aircraft operator as a host location for this test. TSA plans 
to use this system to assess risk of cargo destined for all-cargo 
aircraft as the system matures.

    Question 25. The TSA indicated it is developing a plan to deploy 
emerging technologies for improving security screening for air 
passengers and their carry-on bags. How does this technology differ 
from technology used today? Also, will the TSA focus on a ``total 
system'' approach which improves detection, increases passenger 
throughput and reduces overall cost or will it continue its focus on 
individually developed breakthrough technology?
    Answer. The Transportation Security Administration (TSA) continues 
to move forward and is preparing to operationally test and evaluate 
additional emerging technologies in FY 2007 to include advanced x-ray 
technology systems, automated explosives detection systems, and bottled 
liquid scanners for carry-on items, as well as whole body imagers, 
second-generation explosives detection trace portals, and cast and 
prosthesis scanners for persons. While these new technologies do offer 
increased automation for the detection of explosives and increased 
passenger throughput, they represent individual efforts that have been 
under development for several years and will not likely reduce overall 
costs. However, it is essential that TSA continue to drive R&D 
requirements that will support moving to a total system approach that 
will not only increase capabilities and minimize processing times, but 
also reduce overall operation and maintenance costs for the screening 
system.
    TSA has an ongoing effort to map the path forward for the 
checkpoint of the future, which looks at five (5) years and beyond. In 
the meantime, TSA has aggressively addressed key existing 
vulnerabilities. TSA uses a layered approach to security at 
checkpoints, and technology is just one component in the strategy. TSA 
has modified existing technologies and developed procedures at the 
checkpoint to successfully detect explosives. Key to the successful 
detection of explosives is the Transportation Security Officer (TSO). 
TSOs have received training in explosive detection and have 
demonstrated proficiency. On the personnel front, TSA has invested 
resources in developing, implementing and training TSOs in order to 
augment the current technology available. On the technology side, we 
have made modifications to the technology. Therefore, existing 
technology solutions are being used more effectively and efficiently to 
meet TSA security goals through better trained TSOs and equipment 
modifications. The prohibited items list was modified to reduce the 
number of items TSOs are looking for to allow them to concentrate 
technology more on explosives. TSOs are also trained in behavioral 
recognition and bomb appraisal. Canines provide a visible, 
unpredictable deterrence in and around the checkpoint and also have 
detection capability. All things considered, TSA has successfully 
deployed checkpoint technologies to address vulnerabilities in a 
layered security system.

    Question 26. Given the U.K. plot last summer, technology that 
screens passengers for concealed or hidden threats has become an 
intriguing form of aviation security. Health and privacy concerns have 
surfaced with some of these technologies although several foreign 
airports are now deploying a safe non-radiating version of this 
technology for improved security which finally moves detection beyond 
the traditional metal gate approach. Has the U.S. deployed this 
technology yet? What are your views on people screening at the 
checkpoint?
    Answer. The Transportation Security Administration (TSA) supports 
the use of whole body imaging technology and has recently announced the 
pilot testing of x-ray backscatter technology, a whole body imager 
(WBI), which has been determined to be a safe technology solution. It 
will allow our screening workforce to identify both metallic and non-
metallic devices and objects on persons. Over the past several years, 
TSA has worked with the vendor of the system that will be used during 
the pilot to develop privacy algorithms that produce images that 
address privacy concerns while still providing necessary information to 
meet security needs. The first unit has been installed at Phoenix Sky 
Harbor International Airport with passenger screening operations 
beginning in February 2007. The initial use of this technology during 
this pilot will be for those passengers who volunteer to undergo 
scanning by the WBI in lieu of a manual pat-down inspection.
    Additionally, TSA is pursuing other WBI solutions, to include 
millimeter wave systems, which offer a non-radiating technology. 
Working with the Department of Homeland Security, Science and 
Technology Directorate, TSA is evaluating a millimeter wave system at 
the Transportation Security Lab in Atlantic City. Once the system's 
capabilities are evaluated, TSA will determine whether this is a 
solution that it could pilot in an airport environment and later 
consider for inclusion in deployment efforts.

    Question 27. The spiral development approach for the deployment of 
advanced technologies has been very successful for our nations 
military. The TSA's approach has been to fund new and inventive 
technologies to achieve breakthrough improvements. This has resulted in 
the very slow deployment of technology while we wait for the better, 
and more expensive systems. For example, technology may exist which 
could enhance the screening of liquids at the checkpoint utilizing 
existing, cost effective, x-ray equipment, yet this has not been 
deployed. Can you provide your views on the TSA's approach to 
technology development?
    Answer. The Transportation Security Administration (TSA) has taken 
advantage of every opportunity presented to operationally test and 
evaluate any and all technologies that meet our requirements for 
detection, as well as operational suitability. TSA does support spiral 
development of technologies and has so demonstrated by the pilot 
testing that continues to occur for new solutions. TSA must also ensure 
that it invests appropriated dollars wisely. We must determine to what 
extent partial solutions should be supported with the funding allocated 
when a possible longer-term, more complete solution will be ready for 
operational test and evaluation within months of a possible partial 
solution investment.
    TSA demonstrated its support of spiral development when it 
purchased and deployed the explosives detection portals. Recognizing 
that this was a first-generation system, TSA deployed sufficient 
numbers of units to determine durability and performance in an airport 
environment while the vendors continued to work on improvements.
    Additionally, TSA has been conducting evaluations of currently 
available advanced x-ray technology, and is planning to invest in some 
of these systems as an option for screening carry-on items. This 
investment will provide some enhancements that will assist our 
screening workforce to better identify prohibited items within a bag/
item and provide some automated detection capabilities. While the 
automated explosives detection system that will be piloted in FY 2007 
will offer a more complete solution, the advanced x-ray technology may 
provide an option for use at some airports and for some elements of the 
traveling public.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                     Hon. Edmund S. ``Kip'' Hawley

    Question 1. How does having a 45,000 TSA screener cap in place help 
your security mission?
    Answer. The Transportation Security Administration (TSA) uses 
people, training, equipment, and technology-based strategies to 
efficiently manage each checkpoint. The newly improved Screening 
Allocation Model objectively measures and adjusts staffing levels, 
scheduling, configurations, and the use of differing technologies at 
each airport. This allows TSA to operate efficiently within the 45,000 
Transportation Security Officer cap while maintaining high security 
levels.

    Question 2. Can TSA keep average passenger wait times to below 10 
minutes at all major U.S. airports with the current screener workforce? 
If not, how many screeners are needed to provide adequate levels of 
security and keep average passenger wait times below 10 minutes?
    Answer. The Transportation Security Administration's (TSA) Staffing 
Allocation Model incorporates a 10-minute wait for passenger and 
baggage screening at the Nation's airports. The current Congressional 
allocation allows TSA to adequately maintain a 10-minute standard on 93 
percent of calendar days. The remaining days need to be supplemented 
with overtime personnel. When 10-minute wait times are exceeded, it is 
primarily due to excessive volume demand and input configurations not 
meeting volume demands.

    Question 3. How many full-time and part-time TSO's are currently 
employed at Newark Liberty Airport? Of these, how many are limited-duty 
or on leave for medical disability reasons? How many are on military 
leave?
    Answer. The report below identifies the number of full-time (FT) 
and part-time (PT) Transportation Security Officers (TSOs) at Newark 
Liberty Airport (EWR) as of January 20, 2007.

                             Airport ID--EWR
------------------------------------------------------------------------
                                                                  Grand
      Job Series                  Job Title             FT   PT   Total
------------------------------------------------------------------------
1802                   Expert Transportation Security    3             3
                        Officer
                       Lead Transportation Security    182           182
                        Officer (LTSO)
                       Master TSO-BDO                    3             3
                       Supervisory Transportation      120           120
                        Security Officer (STSO)
                       Transportation Security         623  406     1029
                        Officer
                                                      ------------------
    Total                                              931  406     1337
------------------------------------------------------------------------
Data Source: Transportation Security Administration, Office of Human
  Capital.
Data Date: January 20, 2007.

    Question 3a. Of these, how many are limited-duty or on leave for 
medical disability reasons?
    Answer. The report below identifies the number of TSOs on limited-
duty and the number of TSOs with approved and/or pending workers' 
compensation (WC) claims who are on leave.

------------------------------------------------------------------------
                             # on Limited Duty        # on Leave with
                         ------------------------ Approved or Pending WC
          Title                                           Claims
                           Full Time   Part Time -----------------------
                                                   Full Time   Part Time
------------------------------------------------------------------------
STSO                               1           0          *3           0
LTSO                               4           0           7           0
TSO                               19           5        **46           5
------------------------------------------------------------------------
    Totals                        24           5          56           5
------------------------------------------------------------------------
* One (1) removal action is pending.
*** Five (5) removal actions are pending.

    Question 3b. How many are on military leave?
    Answer. There are two (2) employees on military leave.

    Question 4. Is former Federal Security Director Marcus Arroyo still 
employed by TSA or receiving any TSA funds on a contract basis? If so, 
please describe the relationship, and if not, when was his date of 
departure?
    Answer. Mr. Arroyo is no longer employed with the Transportation 
Security Administration (TSA). He retired on January 3, 2007. He is not 
receiving any TSA funds on a contract basis.

    Question 5. Over 2 years ago, in the Intelligence Reform Act of 
2004, Congress authorized TSA to put cameras in the checked baggage 
screening areas of airports, in order to improve security, deter thefts 
and mishandling of checked baggage, and help reduce claims against TSA 
for theft and mishandled baggage. How many have you installed, and what 
has been the effect?
    Answer. The Transportation Security Administration (TSA) 
established the Closed Circuit TV for Airport Program (CCTVAP) to 
connect and supplement existing airport authority owned and operated 
video systems. Under the CCTVAP, TSA has entered into Other Transaction 
Agreements (OTAs) with 20 airport authorities (3 pending) to upgrade 
CCTV systems and recordation at checkpoints and baggage areas.
    The objective of the CCTVAP is to provide coverage of TSA areas and 
recordation of events plus access to airport authority cameras 
throughout the airport. The airport authority is the vendor and, 
working with the local TSA personnel, determines numbers and types of 
cameras and locations. TSA does not track the total number of CCTV 
cameras as the information is continuously subject to change to meet 
the need. However, TSA has entered into agreements with the following 
airports to support CCTV coverage at TSA screening locations for these 
airports:

        Albuquerque International Sunport (ABQ)
        Burlington International Airport (BTV)
        Chicago O'Hare International Airport (ORD)
        Colorado Springs Municipal Airport (COS)
        Cyril E. King International Airport, Virgin Island (STT)
        Greater Buffalo Airport (BUF)
        Hartsfield Atlanta International Airport (ATL)
        Henry E. Rohlsen Airport, Virgin Island (STX)
        Honolulu International Airport (HNL)
        Los Angeles International Airport (LAX)
        Louisville International Airport (SDF)
        McCarran International Airport (LAS)
        Memphis International Airport (MEM)
        Miami International Airport (MIA)
        Minneapolis St. Paul International Airport (MSP)
        Portland International Airport (PDX)
        San Antonio International Airport (SAT)
        Seattle Tacoma International Airport (SEA)
        Southwest Florida International Airport (RSW)

    Question 6. Will the Administration request sufficient funding for 
more airports to get in-line baggage screening systems, specifically 
through the ``letter-of-intent'' process?
    Answer. The Transportation Security Administration (TSA) and the 
Department of Homeland Security remain committed to working with 
Congress to develop equitable, feasible, and innovative means to 
defraying the costs of more expeditiously installing optimal in-line 
checked baggage screening equipment and systems.
    Progress on deploying in-line systems has been at a steady pace. 
Some of the largest airports in the country including Boston, Atlanta, 
Dallas, and Denver have in-line systems and several others are under 
construction. Today, 36 airports have operational in-line systems--18 
full airport systems and 18 airports with partial systems (terminal 
solutions). Over the next two (2) years TSA expects full and partial 
in-line systems to become operational at 25 additional airports. This 
level of effort best balances resources with all the other risks to 
transportation security.
    In February 2006, TSA provided Congress with a copy of a Strategic 
Plan for the Electronic Baggage Screening Program. The Plan identifies 
the optimal checked baggage screening solution for the Nation's top 250 
airports, which process 99 percent of all checked baggage transported. 
These optimal solutions include a variety of in-line system 
configurations designed to support the needs of each individual 
airport. The plan also identifies a projected time-line when the 
implementation of the optimal solution would be most appropriate. 
Working with the funding levels provided each fiscal year and the 
prioritization model, TSA identifies the projects to be executed.

    Question 7. The 9/11 Commission Report recommends that ``The TSA 
and the Congress must give priority attention to improving the ability 
of screening checkpoints to detect explosives on passengers'' (page 393 
of the report). Trace detection puffers are the only functioning 
devices available today (and for the foreseeable future) that are 
suitable for screening passengers for explosives. Why isn't TSA 
continuing to deploy explosive trace detection ``puffer'' machines? And 
why did TSA suspend deployment of this technology in the first place?
    Answer. The Transportation Security Administration (TSA) has 
deployed 97 Explosive Trace Portals (ETPs) to 37 of our Nation's 
airports to further enhance our ability to detect explosives.
    TSA encountered reliability and performance issues once the initial 
roll-out of these first-generation ETPs was completed, and the portals 
were subjected to a variety of environmental issues. TSA is working 
with one of the vendors (GE) to make improvements to these first-
generation units. The information gathered and experience gained 
through the initial deployment of these units has provided insight into 
operational integration enhancements for the next generation of this 
technology.
    TSA is working with the vendors to make the necessary improvements 
that will enhance the performance of the technology before additional 
units are deployed. Once the improvements are made, the ETPs will be 
evaluated and deployment will continue.
    Additionally, TSA is exploring additional technology solutions that 
will provide combined weapons and explosives detection capabilities in 
the form of whole body imaging.

    Question 8. How many more items are confiscated by TSO's daily/
weekly/monthly as a result of the ``liquid ban'' that TSA implemented 
last August?
    Answer. The Transportation Security Administration (TSA) does not 
confiscate liquids, gels, or aerosols at passenger screening 
checkpoints. When items that are prohibited, but otherwise lawful, are 
identified at the checkpoint, Transportation Security Officers offer 
passengers the choice of voluntarily abandoning the items or disposing 
of them by some other method. Examples of other disposition methods 
include placing the items in checked baggage or mailing the items from 
the airport.
    TSA does not record the number of passengers abandoning liquids at 
the checkpoint or the estimated volume of abandoned liquids.

    Question 9. How many weapons are confiscated by TSO's on a daily/
weekly/monthly basis?
    Answer. A core mission of the Transportation Security 
Administration (TSA) is to prevent the introduction of items into the 
sterile areas of the Nation's airports that could be used for deadly or 
dangerous purposes. When the screening process intercepts prohibited 
items, TSA denies the items entry to the sterile area; we do not 
confiscate them. TSA considers any prohibited item (weapon or 
otherwise) discarded at a checkpoint to be voluntarily abandoned 
property. When items that are prohibited, but otherwise lawful, are 
identified at the checkpoint, Transportation Security Officers offer 
passengers the choice of voluntarily abandoning the items or disposing 
of the items by some other method. Examples of other disposition 
methods include placing the items in checked baggage or mailing the 
items from the airport. Unlawful items are directed to the attention of 
local law enforcement for appropriate handling.
    The following table shows incident records for dangerous/deadly 
items recorded in TSA's Performance and Results Information System 
(PARIS) in Fiscal Year 2006, sorted as requested. TSA field operations 
report information to TSA headquarters regarding a wide range of 
screening operations using this system.

------------------------------------------------------------------------
Dangerous or Deadly Item
          Type             Tot./FY06   Avg./Day    Avg./Wk.    Avg./Mo.
------------------------------------------------------------------------
Ammunition                     9,953          28         192         830
BB/Paint/Flare/Spear/            187           1           4          16
 Pellet Gun
Bio/Chem/Radio Agent              10           1           1           1
Bludgeon                       1,083           3          21          91
Cutting Item (knife,          25,326          70         488       2,111
 razor, box cutter,
 saber, etc.)
Explosive Device                  50           1           1           5
Firearms                       2,057           6          40         172
Fireworks                        454           2           9          38
Flare                             32           1           1           3
Fuel/Gasoline/Paint               60           1           2           5
 Thinner
Hand Grenade (real and            76           1           2           7
 inert)
Mace/Pepper Spray                532           2          11          45
Martial Arts/Self              2,129           6          41         178
 Defense Item
Part of Firearm                1,410           4          28         118
Realistic Replica of             360           1           7          30
 Firearm
Stun Gun/Shocking Device         209           1           5          18
------------------------------------------------------------------------

                                  <all>

</pre></body></html>
